<html>
<title> - BUILDING A STRONGER DIPLOMATIC PRESENCE</title>
<body><pre>[Senate Hearing 110-242]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-242

                BUILDING A STRONGER DIPLOMATIC PRESENCE

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             AUGUST 1, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs












                     U.S. GOVERNMENT PRINTING OFFICE

37-366 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001























        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
             Jennifer A. Hemingway, Minority Staff Director
                      Emily Marthaler, Chief Clerk


















                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     4

                               WITNESSES
                       Wednesday, August 1, 2007

Ambassador Heather M. Hodges, Acting Director General of the 
  Foreign Service, and Director of Human Resources, U.S. 
  Department of State............................................     7
James B. Warlick, Principal Deputy Assistant Secretary for 
  International Organization Affairs, Bureau of International 
  Organizations, U.S. Department of State........................     9
Jess T. Ford, Director, International Affairs and Trade, U.S. 
  Government Accountability Office...............................    20
Thomas Melito, Director, International Affairs and Trade Team, 
  U.S. Government Accountability Office..........................    22
John K. Naland, President, American Foreign Service Association..    29
Thomas D. Boyatt, Ambassador (Retired), President, Foreign 
  Affairs Council................................................    30
Deborah Derrick, Executive Director, Better World Campaign.......    32

                     Alphabetical List of Witnesses

Boyatt, Thomas D.:
    Testimony....................................................    30
    Prepared statement...........................................   108
Derrick, Deborah:
    Testimony....................................................    32
    Prepared statement...........................................   112
Ford, Jess T.:
    Testimony....................................................    20
    Prepared statement...........................................    59
Hodges, Ambassador Heather M.:
    Testimony....................................................     7
    Prepared statement...........................................    43
Melito, Thomas:
    Testimony....................................................    22
    Prepared statement...........................................    82
Naland, John K.:
    Testimony....................................................    20
    Prepared statement...........................................   101
Warlick, James B.:
    Testimony....................................................     9
    Prepared statement...........................................    52

                                APPENDIX

Background on State Department Staffing Shortages................   117
Questions and responses for the Record from:
    Ambassador Hodges............................................   125
    Mr. Warlick..................................................   186
    Mr. Ford.....................................................   195
Task Force Report from the Foreign Affairs Council entitled 
  ``Managing Secretary Rice's State Department: An Independent 
  Assessment''...................................................   199























 
                BUILDING A STRONGER DIPLOMATIC PRESENCE

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2007

                                   U.S. Senate,    
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 2:35 p.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this hearing of the Subcommittee on 
Oversight of Government Management, the Federal Workforce, and 
the District of Columbia to order. I want to welcome our 
witnesses and thank you for being here today.
    An agency's greatest asset is its human capital. Today's 
hearing will examine staffing and resource needs at the 
Department of State in light of current and future global 
challenges. It will also examine how to encourage the 
employment of more Americans by the United Nations and its 
organizations.
    The men and women who serve in the 266 embassies, 
consulates, and other posts in 172 countries around the world 
are the face of the United States in the international 
community. It is these men and women serving overseas who 
defend and promote America and America's interests on a daily 
basis.
    The same can be said of those Americans who serve in 
organizations of the United Nations. While the high-level 
management positions Americans secure at the U.N., the U.N. 
High Commission on Refugees, the International Atomic Energy 
Agency, and the U.N. Educational, Scientific, and Cultural 
Organization are beneficial in helping to bring American 
perspectives and issues to the U.N., it is the professional 
staff who design and manage projects. Americans serving in 
these positions are part of a professional network of employees 
who bring the culture and traditions of the United States to 
the international community.
    The war on terror has brought new foreign policy challenges 
to the United States. These challenges cannot be solved through 
grand gestures and proclamations; they must also be addressed 
in the routine work of our men and women who serve at the 
embassies and consulates of the State Department, in 
Washington, and within the halls of the U.N. and its 
organizations. These are the interactions that, at the end of 
the day, matter most. That is why it is so critical for the 
State Department to assist Americans who seek employment in the 
U.N.
    Since the end of the Cold War, the world has dissolved into 
a patchwork of competing interests, threats, and unexpected 
challenges. The Cold War structure of our institutions, 
including the State Department, has had to change with the 
times.
    In 2002, following the tragic attacks of September 11, 
2001, former Secretary of State Colin Powell created the 
Diplomatic Readiness Initiative to revitalize the State 
Department and to bring in 1,158 new skilled, committed, and 
well-trained Foreign and Civil Service employees. Congress 
appropriated over $100 million for the DRI, which enabled the 
State Department to hire 300 new employees and 1,700 new 
Foreign Service officers.
    On January 18, 2006, Secretary Rice announced her own 
program, the Transformational Diplomacy Initiative, which 
called for the global repositioning of Foreign Service 
positions from Washington, DC, and elsewhere to critical 
emerging areas including Africa, South and East Asia, and the 
Middle East. Many of these posts are considered hardship posts, 
which the State Department defines as locations where the U.S. 
Government provides differential pay incentives to encourage 
employees to bid on assignments at these posts and to 
compensate them for the hardships they encounter there. Such 
incentives are necessary due to extraordinarily difficult 
living conditions, excessive physical hardship, or notably 
unhealthful conditions affecting the majority of employees 
officially stationed there.
    However, global repositioning has resulted in a hollowing 
out of Foreign Service staff, as the State Department has 
continued to lose more staff than it has hired. To make matters 
worse, in implementing the global repositioning of positions, 
Secretary Rice did not obtain funding for additional positions 
in these critical emerging areas, but instead moved existing 
positions to them.
    According to a report by the Foreign Affairs Council issued 
on June 1, 2007,\1\ between 2001 and 2005, 1,069 new positions 
and program funding increases were secured through the DRI. But 
since that time, all of these new positions have been 
redirected to assignments in Iraq, Afghanistan, and other 
hardship posts. Roughly 200 existing jobs remain unfilled and 
an additional 900 training slots necessary to provide language 
and other skills do not exist. The report adds that in the 
first 2 years of Secretary Rice's tenure at the State 
Department, no new net resources have been secured. Therefore, 
whatever gains the DRI secured at the State Department were 
quickly eliminated because of the wars in Iraq and Afghanistan.
---------------------------------------------------------------------------
    \1\ The Task Force Report from the Foreign Affairs Council entitled 
``Managing Secretary Rice's State Department: An Independent 
Assessment,'' appears in the Appendix on page 199.
---------------------------------------------------------------------------
    In fact, in order to meet the ongoing needs in these two 
countries, Secretary Rice moved 280 mid-level Foreign Service 
positions from other posts to staff the U.S. embassies in Iraq 
and Afghanistan.
    The Vice President of the American Foreign Service 
Association has testified that at least 40 percent of State 
Department diplomats who have served in danger zones suffer 
from some form of post-traumatic stress disorder, or PTSD. It 
is important to remember that, unlike members of the military, 
these unarmed civilian diplomats are not well-prepared to 
function in active combat zones. Increasingly, service in 
hardship posts is a requirement for promotion within the 
Foreign Service, which means that PTSD will likely become a 
mainstay of the FSO experience over the long term. The State 
Department must develop more effective means to acknowledge 
this health risk and to provide the support that the FSOs 
returning from these posts so greatly require.
    Staffing at the State Department is not the only problem we 
face in our ability to execute U.S. foreign policy. Despite the 
fact that the United States contributes the largest portion of 
the U.N. budget, Americans continue to be underrepresented at 
the United Nations and its specialized agencies. At my request, 
the GAO surveyed five U.N. organizations last year which 
comprise roughly 50 percent of total U.N. organizations' 
professional staff. They found that three of them--the UNHCR, 
IAEA, and UNESCO--fell short of either formal or informal 
hiring targets agreed upon by the organizations and their 
member states while staffing levels for Americans and others. 
This means that the United States is losing an opportunity to 
contribute important skills, perspectives, and experience to 
the U.N.
    The September GAO report found that there are barriers 
keeping Americans from assuming positions at the U.N. A 
critical finding in that report was that the State Department 
does not effectively support Americans who seek employment at 
these organizations and, when it does, tends to emphasize only 
director-level or higher posts.
    As the chairman of the Readiness Subcommittee of the Armed 
Services Committee and as chairman of the Veterans' Committee, 
I am committed to ensuring that our men and women in uniform, 
fighting overseas, and our returning veterans have the 
training, equipment, and support they need both to accomplish 
their mission and sustain morale.
    We need to devote the same attention to the men and women 
serving our Nation in a civilian capacity overseas that we do 
to our service personnel. At the same time, I believe that if 
we are going to be successful in winning the hearts and minds 
of the rest of the world, which is so critical in the war on 
terrorism, we must do a much better job of promoting American 
participation in international organizations.
    I want to thank our witnesses for being here today to 
discuss this critical issue.
    I now would like to move on here. Senator Voinovich is 
expected to be here, and when he does, I will have him deliver 
his statement as well.
    But I want to welcome the witnesses to this Subcommittee 
today: Ambassador Heather Hodges, Acting Director General of 
the U.S. Department of State; and James Warlick, Principal 
Deputy Assistant Secretary, Bureau of International 
Organizations at the U.S. Department of State.
    And I want you to know that it is the custom to swear in 
all witnesses. I would ask all of you to stand and raise your 
right hand and to respond after the swearing in. So will you 
please rise with me? Do you swear that the testimony you are 
about to give this Subcommittee is the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Ambassador Hodges. I do.
    Mr. Warlick. I do.
    Senator Akaka. Thank you. Let the record note that the 
witnesses responded in the affirmative.
    Before the witnesses begin their testimony, let me state 
for the record, as we deal with a hearing like this, that I 
understand that our staffs have had some difficulty, and out of 
that I would tell you that I was greatly disappointed to hear 
that we had some problems trying to set up this hearing. And I 
wish to remind everyone that we are here representing the 
people of this great Nation, and I as the Chairman am holding 
this hearing to understand the staffing needs of the State 
Department. And I want you to know that as Chairman of the 
Federal Workforce Subcommittee, this is not only your problem, 
it is the country's problem. And so we need to try to get as 
much information as we can from all corners and to try to use 
this to deal with the problems that we face.
    He is right on time. I will ask Senator Voinovich for his 
statement. Senator Voinovich and I have been working on human 
capital, and I look upon him as the hero of human capital.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator, and I apologize for 
being late. I want to thank you for calling this hearing this 
afternoon on the Department of State's human capital challenges 
and the hiring of U.S. citizens in U.N. agencies.
    As a Member of this Subcommittee, as Senator Akaka said, I 
have had a longstanding interest in improving government 
management in general and, in particular, an interest in the 
management of the Department of State. I know that successful 
diplomacy requires the support of a well-prepared and well-
managed Foreign and Civil Service.
    Unfortunately, the downsizing of the 1990s left a gap in 
experienced personnel, and the change in reality of the State 
Department's mission after September 11 combined to make this 
challenge a difficult one. As with other Federal agencies, the 
State Department is losing seasoned staff to retirement at a 
time when the need to engage in public diplomacy has never been 
greater. I have expressed my concerns to Secretary Rice and to 
Deputy Secretary Negroponte and encouraged them to make 
leadership and management a top priority. I was really 
concerned when Bob Zoellick got the job because I did not think 
he was going to get involved in management. I am hoping that 
Deputy Secretary Negroponte is paying more attention to 
management.
    This hearing is timely before the loss of Executive Branch 
leadership due to transition and so we are concerned about what 
happens in the interim. With a number of workforce initiatives 
begun by Secretary Rice and her predecessor, Secretary Powell, 
it is extremely important that the State Department not lose 
momentum. And I know Secretary Rice has tried to really pay 
attention to management, but I do not know of any Secretary of 
State that has had more to do than she has. I am sure her focus 
on management is not very great because she has no time for it.
    I am aware that priorities in Iraq and Afghanistan have 
slowed progress, but developing critical skills in management, 
improving language training, changing leadership culture to 
emphasize teamwork between the Foreign Service and Civil 
Service are fundamental no matter who is in charge. In 
addition, the Federal Government needs to be the employer of 
first choice by providing meaningful incentives, such as the 
student loan repayment program, to attract talented staff.
    The Subcommittee held a hearing at the beginning of the 
year devoted to language training in the Federal Government. 
The need to improve foreign language skills is not an 
abstraction. It took the tragedy of September 11 to wake up to 
the fact that we were not prepared for the 21st Century.
    To maintain our competitive business edge and keep our 
country safe, Americans must learn to be global citizens and to 
communicate effectively with other peoples around the world. I 
am a strong proponent of the good that can be done through 
cultural exchange programs and the opportunities for citizens 
of other countries to visit and learn about our country. And 
spending time in another country can be life-changing for 
citizens as well.
    The public diplomacy mission of the Department of State is 
all about connecting to foreign audiences and explaining 
American values and ideals. Yet GAO, in their 2006 report, 
notes that 30 percent of officers in language-designated public 
diplomacy positions in the Muslim world have not attained the 
level of language proficiency required for their positions, 
hampering their ability to engage with foreign publics.
    Most agree that success in our war against terror will 
depend on winning the hearts and minds of Muslims throughout 
the world. Imam Rauf, who visited with me recently, is putting 
together a coalition of Muslim scholars from all sects to show 
how the principles of democracy and the West are consistent 
with Islam. How does the Muslim world deal with modernity and 
how does modernity deal with the Muslim world?
    The State Department is also responsible for protecting and 
assisting U.S. citizens who are living or traveling abroad. 
Unfortunately, many Americans saw the problems of understaffing 
and poor planning firsthand when they tried to comply with the 
requirement to have a passport for travel in the Western 
Hemisphere. My office, as well as that of every other Senator 
and Member of Congress, was inundated with constituents trying 
to embark on travel plans who were unable to get passports in 
time. It took extraordinary intervention with the Departments 
of Homeland Security and the State Department to ease the 
restriction temporarily. I just saw something on Jim Lehrer the 
other night, a report that you have got a bunch of young, 
bright Presidential scholars, 200 of them that you brought in, 
and you are working to get that backlog down.
    What is dismaying is that this situation could have and 
should have been anticipated. In other words, we should have 
known something about this. So it brings me back to concerns I 
have raised with the Secretary and Deputy Secretary about the 
need for a continued focus on management. the State Department 
is comprised of both the Civil Service and Foreign Service, and 
many of the jobs they fill are interchangeable. Many complain 
that the State Department is failing to use or retain civil 
servants because there is no clear development plan for the 
Civil Service cadre, and there is also no clear plan for 
integrating civil servants with overseas posts when needed.
    Currently, there are many civil servants who would 
volunteer to serve overseas, but there is no way to do that 
while continuing on an upward career path. I think this is a 
missed opportunity when many other key posts are understaffed.
    I have been told that public diplomacy officers in turn are 
burdened with administrative duties, such as budget, personnel, 
and internal reporting that compete with their public diplomacy 
responsibilities. I know the State Department is making an 
effort to change this, and I am anxious to hear what is being 
done to help turn this situation around.
    Finally, I want to say a word about our panel on the hiring 
of U.S. citizens to fill positions in U.N. agencies. First of 
all, I do not think we have been aggressive enough. We should 
be encouraging people to apply. Ensuring that professional 
merit is the standard by which candidates are chosen should 
also be a goal, and we have talked to Ban Ki-moon about this. 
If you want people to apply then this cannot be a patronage 
operation. They have got to believe, ``If I come in here and I 
do a good job, I can move up the ranks in this organization.''
    We need to provide whatever support and leverage we can to 
help Ban Ki-moon institute the management reforms that he would 
like to make in the United Nations. I happen to believe that 
the Secretary General is a decent man, understands what needs 
to be done, and has got somebody working on management that I 
think is terrific.
    So, Mr. Chairman, again, I apologize to you and to the 
witnesses for being late, and I look forward to hearing the 
witnesses' testimony. Thank you for being here.
    Senator Akaka. Thank you very much, Senator Voinovich. We 
have been working on human capital for many years, and we will 
continue to work on it here.
    At this time, I would like to call on Ambassador Hodges for 
your statement.

 TESTIMONY OF AMBASSADOR HEATHER M. HODGES,\1\ ACTING DIRECTOR 
GENERAL, FOREIGN SERVICE, AND DIRECTOR OF HUMAN RESOURCES, U.S. 
                      DEPARTMENT OF STATE

    Ambassador Hodges. Mr. Chairman, Senator Voinovich, thank 
you for this opportunity to testify before you today and 
address the State Department's efforts to develop, position, 
and support our dedicated corps of Foreign Service, Civil 
Service, and locally employed staff to effectively meet the 
challenges of our worldwide mission.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ambassador Hodges appears in the 
Appendix on page 43.
---------------------------------------------------------------------------
    The changes we have seen in terms of the Department of 
State's staffing requirements in the post-September 11 world 
are nothing less than staggering. The number of State 
Department positions overseas that are designated 
``unaccompanied'' or ``limited unaccompanied'' for reasons of 
hardship or danger has almost quadrupled since 2001, from less 
than 200 to more than 750 today.
    Since 2001, we have opened and staffed new embassies in 
Podgorica, Montenegro, and Dili, Timor Leste, and set up dozens 
of provincial reconstruction teams under the most challenging 
circumstances in Afghanistan and Iraq, while still maintaining 
operational readiness at our other 265 missions worldwide.
    We have also enhanced interagency cooperation by increasing 
the number of political military advisors to military 
commanders in the field, expanding details to other national 
security agencies, and developing the U.S. Government's 
capacity to participate in reconstruction and stabilization 
efforts.
    Sustaining the State Department's high standards for 
foreign language capability has also become challenging. Since 
2001, the number of language-designated positions in the State 
Department has doubled. Language-designated positions and 
critical needs languages, including Arabic, Chinese, and Farsi, 
which are often the hardest to teach, have increased by 170 
percent.
    Over three rounds of global repositioning, the Secretary 
has approved the realignment and creation of 285 positions, 
including the establishment of new American Presence Posts, by 
reallocating positions and implementing other management 
reforms. The regions of East Asia Pacific and South Central 
Asia have been allotted the most new positions, with our 
missions in India and China receiving the largest staffing 
increases. We have effectively repositioned one-tenth of our 
political, economic, and public diplomacy officers overseas 
through the global repositioning process.
    The State Department has also increased training to meet 
the needs of transformational diplomacy. The Foreign Service 
has expanded its foreign language training capacity to increase 
the number of critical needs language speakers and raise the 
proficiency of existing foreign language speakers. The State 
Department enrollments in Arabic language courses, for example, 
have nearly quadrupled since 2001, with roughly 450 enrollments 
in the various types of Arabic courses in fiscal year 2006.
    We also announced a special initiative this summer to 
encourage State Department employees to learn Arabic. Under 
this program, Foreign Service generalists and specialists can 
curtail their current jobs to begin full-time Arabic training.
    Within the Bureau of Human Resources, we have adapted our 
recruitment intake and assignments processes to maintain 
operational readiness in the face of global challenges. We have 
adapted our intake process to meet the State Department's 
transformational diplomacy agenda and retain our ability to 
attract the best and brightest foreign affairs professionals. 
Registration is currently underway for the first test offering 
in September 2007 as part of a redesigned Foreign Service 
intake process.
    In addition to changing the way we recruit and hire Foreign 
Service officers, we also made substantial changes to the 
assignments process in 2006 and 2007. We changed the order in 
which assignments are made, tightened the so-called ``Fair 
share'' rules, requiring more of our personnel to serve at 
hardship posts, limited Foreign Service officers to 5 
consecutive years of service in Washington, DC, and eliminated 
fourth-year extensions at posts with less than 15 percent 
differential. I am pleased to report that the process has 
worked well. As of July 31, we have also successfully filled 93 
percent of our summer 2007 openings in Iraq, including those in 
Baghdad and in the Provincial Reconstruction Teams, and nearly 
all of our unaccompanied positions worldwide have all been 
staffed with volunteers.
    This year, we also introduced a country-specific 
assignments cycle for Iraq. This new cycle will ensure that we 
once again fully staff our mission in Iraq in 2008.
    Our new assignments procedures have been successful because 
of our dedicated men and women who, in the finest tradition of 
the Foreign Service and the State Department in general, are 
committed to serving the needs of America. One of our ongoing 
challenges is staffing overseas positions, and one of our top 
legislative priorities is to implement a new pay-for-
performance system within the Foreign Service that will 
establish a single, worldwide pay scale for Foreign Service 
members and eliminate an 18.6-percent disparity for FS-01 and 
below officers serving overseas.
    The State Department has included the Foreign Service pay 
reform provisions in its fiscal year 2008 and 2009 
authorization bill request, which was sent to Congress in May 
2007. We look forward to working with Congress to pass this 
important piece of legislation, which will go a long way to 
help the State Department staff our most difficult posts 
overseas. We are doing all we can to meet the challenges of 
staffing our missions in a post-September 11 world and are 
proud of our success to date. We also acknowledge that, despite 
our best efforts, the State Department's staffing needs to 
exceed our current resources.
    The State Department is dealing with a deficit of mid-level 
Foreign Service generalists due to hiring shortages in the 
1990s. At the FS-02 level, we have 210 more positions than 
officers. In addition, the State Department has only been able 
to set aside 500 positions for long-term training, a mere 5 
percent of our Foreign Service position base. As a result, we 
have been forced to leave some overseas positions vacant for 
long periods, or we have had to waive language requirements in 
order to fill positions.
    To address our staffing needs, the State Department 
requested 254 new positions in the fiscal year 2008 budget to 
cover training, surge, and rotational requirements. The 
President's budget submission has requested new positions for 
the last 3 years, but Congress has not appropriated any new 
positions outside of the earmarked consular and security 
positions since 2004.
    Our Foreign Service corps of approximately 11,500, while 
made up of the most talented and capable foreign affairs 
professionals this country has to offer, is too small to handle 
the United States of America's increasingly critical and 
growing mission of diplomatic engagement. To put this number in 
perspective, our entire corps of Foreign Service generalists 
and specialists is about the size of one army division.
    We are hard at work around the world with about 67 percent 
of Foreign Service employees serving overseas and 68 percent of 
those assigned to hardship posts. We are proud of our 
committed, capable Department of State employees who make 
sacrifices every day to serve the American people, and we are 
committed to supporting and enabling them to effectively carry 
out the State Department's mission.
    Mr. Chairman, I thank you for the opportunity to address 
you today.
    Senator Akaka. Thank you very much for your testimony, 
Ambassador. And now we will hear from Mr. Warlick.

 TESTIMONY OF JAMES B. WARLICK,\1\ PRINCIPAL DEPUTY ASSISTANT 
    SECRETARY, BUREAU OF INTERNATIONAL ORGANIZATIONS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Warlick. Mr. Chairman, Senator Voinovich, I am pleased 
to have the opportunity to discuss the Department of State's 
efforts to recruit U.S. citizens for positions at U.N.'s 
organizations. We place high priority on increasing the number 
of Americans at all levels in international organizations. 
Americans bring to the work environment well-honed skills, high 
levels of education, and relevant experience in their fields of 
expertise. They are also accustomed to working in a culture 
where ethics, efficiency, and effectiveness are prized, and 
accountability is expected. A strong American presence in 
international organizations is in our Nation's best interests 
because it translates into influence and a greater likelihood 
of achieving our policy goals.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Warlick appears in the Appendix 
on page 52.
---------------------------------------------------------------------------
    Our highest priority is placing American citizens in policy 
and senior-level positions in the U.N. system. We have worked 
closely with new U.N. Secretary General Ban Ki-moon and his 
staff to identify the most talented Americans and place them in 
positions of responsibility. We were particularly pleased that 
the Secretary General selected Ambassador Lynn Pascoe to serve 
as Under Secretary General for Political Affairs and Josette 
Sheeran to be the new Executive Director of the World Food 
Program. The appointments of Nancy Graham as Director of Air 
Navigation for the International Civil Aviation Organization 
and Craig Johnstone as Deputy U.N. High Commissioner for 
Refugees were other achievements.
    We have also provided assistance to Americans who have been 
successful in obtaining entry in mid-level positions. For 
example, a Foreign Service officer recently obtained an 
administrative officer position in the U.N. Office at Geneva, 
and an American was selected as an examinations officer in the 
U.N. Secretariat.
    We are seeking to increase the overall number of Americans 
in international organizations. As of the end of 2005, there 
were roughly 2,200 Americans serving in professional positions 
in the U.N. system, representing 8.2 percent of the 
professional workforce. This is down from the year 2000 when 
Americans held 8.8 percent of the professional positions.
    But these numbers do not tell the whole story. We are 
targeting particular jobs, agencies, and programs where the 
presence of American citizens can make especially important 
contributions. For example, there has been a major interagency 
effort to increase the number of Americans at the International 
Atomic Energy Agency, and we have had some success. However, 
increasing the number of Americans, regardless of grade level, 
is not an easy task. Many challenges are not primarily within 
the control of the United States, including restrictions on the 
number of positions open to external candidates, stiff 
competition from nationals of other countries, many of whom are 
multilingual, and limited job opportunities for spouses--a 
problem for many American families that are used to two incomes 
and spouses who want to work.
    To achieve our goal of increasing American representation 
in the U.N. system, we are working in different ways.
    First, we have increased the resources devoted to this 
effort. In 2002, there were only two positions assigned to this 
area, while now we have six positions--four of which are fully 
dedicated. One position concentrates solely on identifying and 
placing Americans in senior- and policy-level jobs. Also, in 
recent years, we have provided higher levels of funding for 
travel, displays, and materials related to outreach events.
    Second, the State Department has increased and broadened 
its outreach efforts. We have reached a much wider source of 
potential candidates because OPM's USAJobs website has a link 
to our employment-in-international-organizations website, as do 
other organizations. We have continued to compile an 
international vacancy announcement list with a dissemination 
list that keeps growing. We have regularly sent officers from 
Washington to meet with international organization officials to 
press for an increase in hiring Americans at all levels, to 
supplement the message being sent routinely by our Ambassadors.
    We have participated in more career fairs than in the past 
and are now trying to better target our audiences. Also, we 
have been broadening our outreach geographically by 
participating in outreach events outside the Washington area, 
such as in Arizona, California, Illinois, New York, North 
Carolina, and Texas.
    To help ensure that Americans are hired at the entry level 
at the United Nations for the last several years the State 
Department has funded the costs for holding the U.N.'s National 
Competitive Recruitment Exam in locations other than in New 
York--for example, in California and Illinois. We also 
recognize the value of junior professional officers, and the 
State Department has continued its funding for these positions. 
For example, there were 15 junior professional officers funded 
in 2006, which was increased to 17 in 2007.
    I should note that Secretary Rice, her senior staff, and 
others throughout the government have worked actively to place 
Americans in positions in the U.N. American citizen employment 
is a U.S. Government priority.
    Third, we have been seeking better coordination and 
collaboration within the U.S. Government. We created an 
interagency task force as a forum for identifying issues, 
seeking out best practices, and disseminating information. We 
have met individually with U.S. Government agencies to examine 
American employment issues in international organizations. In 
addition, in 2006, Secretary Rice sent a letter to heads of 
U.S. Government agencies urging them to assist and encourage 
details and transfers of their employees to international 
organizations.
    We acknowledge that more can be done to place American 
citizens in U.N. jobs, and we welcome GAO's report, issued in 
September 2006, on additional efforts needed to increase U.S. 
employees at U.N. agencies. We agree with each of the report's 
recommendations and are in the process of implementing them. 
For example, we updated all informational documents on our 
international organization employment website in 2007. We began 
researching Internet-based options for compiling a roster of 
potential candidates. And, we initiated a study to identify the 
fields of expertise most often advertised by international 
organizations in order to better target our recruitment 
efforts.
    The Department of State is committed to placing more U.S. 
citizens in international organizations at all levels. We are 
continuing our efforts to place more Americans in important 
posts and will continue to engage senior officials, our 
missions, U.S. Government agencies, and international 
organizations themselves toward this end. We will persist in 
seeking to implement better, more cost-effective, and efficient 
mechanisms to recruit and place Americans in the U.N. system.
    Thank you very much for your attention.
    Senator Akaka. Thank you very much, Mr. Warlick.
    Ambassador Hodges, it is clear that PTSD is a serious 
problem for FSOs returning from hardship posts, and I would 
tell you that many people do not realize this and how tough it 
is to serve there.
    What kinds of practices does the State Department have in 
place to support Foreign and Civil Service employees who 
develop PTSD as a result of assignments in those hardship posts 
such as Iraq and Afghanistan?
    Ambassador Hodges. Well, sir, we have instituted a seminar 
that is now required for all people who are returning from 
service in Iraq and Afghanistan and actually many of the other 
unaccompanied posts if the people so desire who have been under 
stressful conditions. We have, as I say, recently made this a 
required course so that people do not see it as a stigma to go 
to it, and when they show up at a course as if they have some 
problem.
    Also, we have recently done a survey of people who have 
served in unaccompanied posts and only recently have compiled 
the information available from that survey. And from that our 
Medical Division finds that we are sure that perhaps 2 percent 
of these employees have PTSD, and it is possible that another 
15 percent have PTSD, although, obviously, it is impossible to 
diagnose from a survey whether or not people have PTSD. But we 
are taking this very seriously, and the Medical Division is 
going to be putting together a unit, we hope, to look at this 
problem, to be able to work with the military, who have far 
more expertise than we do in this issue, and we also want to 
become more and more aware of the problem because we know, as 
you said, that this is something that we are going to live with 
for many years to come.
    Senator Akaka. At this time do you have follow-up support? 
The reason I ask is we know that, for instance, PTSD does not 
come immediately.
    Ambassador Hodges. Exactly.
    Senator Akaka. It may be a year or so.
    Ambassador Hodges. Right.
    Senator Akaka. Do you deal with that follow-up support?
    Ambassador Hodges. Well, I think we have to do more, and it 
is exactly right that just a follow-on course or seminar when 
somebody is just back from service is not enough. We have to 
make sure that these people are aware of the resources we have 
within our Medical Division. Also, overseas in some posts we 
have regional medical centers, doctors who are there who travel 
around to the other posts, so they are always available to 
people who have gone on to other assignments. But also our 
Family Liaison Office does work with members of families and is 
also available to people who want to go to them.
    But, again, we know we have to do more.
    Senator Akaka. In fiscal year 2008, the State Department 
requested $398 billion plus an additional $1.88 billion for 
Iraq. The Administration granted none of the positions 
requested in either fiscal year 2006 or fiscal year 2007 for 
training and transformational diplomacy.
    Can you comment on this case?
    Ambassador Hodges. As I mentioned in my testimony, we have 
in many cases tried to fold the training into assignments of 
people going overseas. We would like to have more positions in 
order to give our people more training before they go. 
Sometimes we have had to waive language requirements. Sometimes 
we have shortened language training. But we have done our best 
to meet the needs of the priority positions.
    Senator Akaka. George Staples, the recently retired 
Director General at the State Department, has said that the 
current situation in which FSOs are being required to serve in 
unaccompanied hardship posts is not simply a result of Iraq and 
Afghanistan but a new norm that will become what he saw as 
standard practice. If this is indeed the case, do you think the 
State Department will have difficulty retaining qualified 
personnel and attracting new personnel?
    Ambassador Hodges. It is true that now the median 
differential of all our positions worldwide is 15 percent, and 
some of those differentials go much higher than that. Also, 
there are over 750 unaccompanied or limited-accompanied 
positions around the world where, for safety reasons 
particularly or security in general, we do not allow family 
members to come. And yes, it is very possible that this will 
not change, that it could go up, it will change from post to 
post over time, but it is likely that this will not change.
    But it is interesting. Ambassador Staples would go out to 
greet all of our new entry-level officers, our new specialists, 
and over the year that he was Director General, I think his 
message got grimmer and grimmer. And yet it seems as if we see 
that these people who are coming into the Foreign Service are 
very energetic. They are eager to serve their country. This is 
very definitely a post-September 11 generation that is signing 
up for the Foreign Service, and we are really very pleased by 
that.
    Also, I might mention our attrition rate is one of the 
lowest in the Federal Government, and we actually have a lower 
attrition rate at the entry level and the mid-levels than we 
have had for many years.
    Senator Akaka. That is good to hear. We will have another 
round. I will ask Senator Voinovich for any of his questions.
    Senator Voinovich. I listened to your testimony, and I 
would like you to share with me as candidly as you can what it 
is that we have not done that makes it difficult for you to do 
your job.
    Ambassador Hodges. That is a leading, question, sir.
    Senator Voinovich. Well, we always have you folks here, and 
we always give you a hard time about lots of stuff.
    Ambassador Hodges. Right.
    Senator Voinovich. But so often I have found that one of 
the reasons why we have the problems is because we are not 
doing the job that we are supposed to be doing. So I am going 
to give you an opportunity, and Mr. Warlick, to share with us 
some of your frustrations about some of the things that are 
going on and how Congress could do a better job of doing our 
job so you can do yours.
    Ambassador Hodges. Obviously, we need positions and we have 
requested positions every year, and we need to have them in 
order to provide sufficient training for our people and also to 
be able to meet emergency needs as well, because when we find 
that we have new position needs in a particular area, we have 
to shift in a way because we just do not have enough people. So 
if we have a need here, we have to move somebody from somewhere 
else in order to meet that need. We simply need more people, 
and we need those funded positions.
    Senator Voinovich. Do you know how many people you would 
need in order to get the job done reasonably? Do you have any 
idea of what the cost would be?
    Ambassador Hodges. I am going to refer you to some of the 
reports of NGOs. The Foreign Affairs Council, when they will be 
testifying after us, they have come up with a recommendation of 
something like 1,100 or possibly more. CSIS is doing a study on 
the Embassy of the Future, and although I do not have that 
data, I understand that their numbers will be very similar, or 
even more than that. And that would allow for training for 
positions and things like that.
    If I could finish answering your original question, also I 
referred to the issue of payment for locality pay overseas, the 
pay for performance and reforms there, that really is a 
disincentive to officers to go overseas to discover that when 
you leave Washington, DC, you are going to actually take a cut 
in pay. People do go overseas. They do serve their country. But 
this would be very helpful to us.
    Senator Voinovich. Well, the question I have is in your 
budget request did you ask for locality pay over the last 
couple of years and not get it?
    Ambassador Hodges. Right.
    Senator Voinovich. How about pay for performance?
    Ambassador Hodges. The seniors have pay for performance, 
but----
    Senator Voinovich. I know you have pay for performance for 
the SES----
    Ambassador Hodges. Right, but that is what we would like to 
do, is have that for the 01s and below.
    Senator Voinovich. You do performance evaluation on----
    Ambassador Hodges. Oh, yes, very rigorously. And we have 
promotion panels every year for every level. That is, in a way, 
just by promoting people, we do a measurement of performance.
    Senator Voinovich. But it is not connected with pay for 
performance?
    Ambassador Hodges. At the moment, below 01 level, no.
    Senator Voinovich. Several years ago, I had dinner with an 
Ambassador and his wife, and I talked to her about Senator 
Akaka's and our efforts to try and move toward pay for 
performance. But the example she gave me--and, Senator, you 
might be interested. She said, ``We have 15 people that work 
for us: five are super hitters, five are really pretty good, 
and five, they are okay. But,'' she said, ``Senator, they all 
get the same pay.'' And she said that it is not the best kind 
of environment for people to work in.
    Would you care to comment at all on whether or not this 
kind of a set-up, the current set-up has an effect on 
attracting people to come to work for the State Department?
    Ambassador Hodges. To be honest, I don't think that as 
people come to take the examination to enter the State 
Department and when they are showing an interest in being in 
the Foreign Service or civil servants or whatever, I don't 
think that is a factor in deciding to join the Department of 
State. I think later on, though, it is a factor when people are 
deciding which assignments to take because they are here, they 
have their families in school, and then they discover that if 
they go overseas--especially people who are the mid-level whose 
salaries are lower, and then they go overseas and they actually 
take a pay cut.
    Senator Voinovich. Well, what we have to understand is that 
we want to be the employer of choice, and the real issue is 
that the competition is very keen out there for these people. 
Everybody wants them and it seems to me that pay for 
performance would be attractive to someone coming to work for 
the State Department.
    I am very pleased because the word I got as I traveled 
around is that you are not losing a lot of people eligible for 
retirement. In other words, you have got folks that are capable 
of retiring or taking an early out and they are sticking 
around.
    Ambassador Hodges. When I spoke I was referring in 
particular to the entry-level retention rate and to the mid-
level retention rate. The senior-level retention rate--the 
retirement rate has gone up in the past couple of years, but we 
believe that has to do with the baby boomers and people who 
have reached their time in class within the service. And that 
is something that we already have factored into our workforce 
planning model. The statistics are not really anything 
different from what we expected.
    Senator Voinovich. What you need are more positions and 
more money. As I mentioned in my opening statement, this is a 
war for the hearts and minds of people. I had a wonderful 
conversation with General Jones, who was in charge of Central 
Command overseas and NATO forces. And if you look at the money 
we are spending in the Defense Department and took some of that 
money and put it in the State Department for some of these 
diplomacy programs, in this new environment that we have, we 
would be far better off. And when I think about, Senator Akaka, 
is we have spent close to $600 billion now in Iraq, and I think 
about how some of that money could have been better used in the 
State Department. I think there are people in this 
Administration thinking about it, but time is running out. The 
challenge that we have is to figure out how to take the 
resources we have and allocate them in the most effective way, 
understanding that the enemy is entirely different than those 
we have confronted in the past.
    Right now, for example, you are worried about folks going 
to places where in the past the State Department did not have 
to worry about it. You could bring your family. But now with 
this growing al Qaeda threat in various parts of the world, the 
State Department is, ``Hey, you had better leave your family at 
home because we are frightened that maybe something might 
happen to them.'' Or staff might say, ``I do not want my family 
to come with me because God only knows what is going to happen 
to me.''
    We really have to have some new thinking if we are going to 
to win the hearts and minds of others and get the job done.
    Senator Akaka. Well, thank you very much, Senator 
Voinovich.
    I have further questions for you, Ambassador. Steve 
Kashkett, State Department Vice President of the American 
Foreign Service Association, recently stated that Foreign 
Service officers fear that the Administration is working to 
transform the Foreign Service into the civilian equivalent of 
the Military Rapid Action Force instead of one characterized by 
the activist diplomats in the style of George Kennan. Do you 
agree with this characterization? And if so, why? And what can 
be done to create more of a balanced workforce in the Foreign 
Service?
    Ambassador Hodges. No, sir, I think that you have to look 
at the Foreign Service and our missions around the world, the 
multiple jobs that we do, it is absolutely incredible. And so 
to say that we are being transformed into one thing or another 
would be misleading.
    We do great things, and some of our people are in Iraq and 
Afghanistan, and some of them love being there. They love this 
opportunity to bring democracy to these countries. They love 
being in PRTs. Other people are in Africa where they also see 
opportunities to transform countries, to help these countries 
be--to support them in their democratic endeavors, or in Latin 
America, but also in European countries, Western European 
countries. Our people have a wide variety of roles. We do a lot 
of multilateral diplomacy. We work with the European Union, and 
our work with the European Union has to do with the rest of the 
world.
    There are just so many things that we are involved in that 
depend on the country and the nature of the job that you are 
going to in the individual countries.
    So I think that we are meeting our priorities as the--the 
Department of State is meeting the priorities that we have as 
the U.S. Government. And so, sometimes we are doing something 
that you could characterize as seeming, as support for what the 
military is doing, or whatever. But we are doing many things.
    Senator Akaka. Mr. Warlick, how does the State Department 
determine whether a position at the U.N. is important enough to 
warrant recruiting efforts?
    Mr. Warlick. We have placed the highest priority on policy-
level and senior-level positions. The policy-level positions 
are at the Under Secretary General and Assistant Secretary 
General levels or the equivalent. Policy and senior-level 
positions also may be considered the Office Director 
equivalent.
    We have placed our highest priority on those positions 
because we believe that they will allow Americans to exercise 
the most influence in the U.N. system. But our efforts have not 
been to the exclusion of junior- and mid-level positions. We 
consider those a priority as well, and we do seek for Americans 
to apply for and fill as many positions as possible throughout 
the U.N. system.
    I would like to add that there are particular programs in 
agencies within the U.N. system that are of higher priority to 
us than others, and we will work most closely with those 
agencies to ensure that Americans are hired, in particular to 
higher-level positions.
    Senator Akaka. In those cases, in those positions, is there 
a process or a way in which the Department of State assists 
U.S. applicants to move into U.N. organizations?
    Mr. Warlick. Well, the process happens in many different 
ways. Sometimes there are American citizens that apply directly 
to the United Nations, and we are never aware of their 
candidacies. We wish that we were aware of such Americans 
because we would like to be in a position to support them.
    There are other American citizens who do come to us 
directly and ask for our assistance, and we do, to the extent 
possible, try to provide assistance to them. Sometimes this is 
done by providing factual assistance on the application 
process. Sometimes it is done by endorsing their applications 
for employment in particular organizations.
    Senator Akaka. In its report, the GAO states that IAEA has 
difficulty attracting qualified U.S. applicants, allegedly 
because the pool of American nuclear specialists is decreasing. 
Do you think this contention is valid? Or is it that there are 
other barriers which dissuade Americans from applying for 
positions?
    Mr. Warlick. I think the contention is true, but there are 
many factors, including some less known ones, that contribute 
to the IAEA's ability to attract Americans.
    First of all, I would say that we would like to see more 
Americans in positions in the International Atomic Energy 
Agency (IAEA). There have been many efforts made by U.S. 
agencies to encourage Americans to apply for jobs in IAEA; and 
IAEA has actually hired more Americans into positions. I would 
say that the contention by the GAO is, in fact, correct. We do 
have available a limited pool of nuclear scientists and people 
with those sorts of technical capabilities. There are very good 
employment opportunities for that pool within the United 
States, and there are other factors involved, too. These 
include the extent to which those scientists and other people 
with technical capabilities can speak other languages and the 
extent to which they are willing to relocate, which often 
involves the availability of job opportunities for their 
spouses. So all this needs to be taken into account to 
understand why Americans representation in IAEA still needs to 
be improved.
    I would say, though, with IAEA, we have engaged very 
actively with the senior leadership because of the importance 
of the work of that organization.
    Senator Akaka. Thank you. Senator Voinovich, do you have 
any further questions?
    Senator Voinovich. Yes, I do.
    We had testimony in regard to the fiasco dealing with 
passports. Do you have any idea when the State Department will 
be able to handle its workload timely?
    Ambassador Hodges. You mentioned the passports before. I 
was looking to see if I had brought a fact sheet with me that I 
believe Members of Congress are going to be receiving from 
Assistant Secretary Bergner today or tomorrow. But we are 
making tremendous progress. Certainly, as you have noted, we 
have put PMFs to work, the entry-level officers, some people 
who had come back for training courses. We have put people to 
work at various passport agencies, and they are making 
considerable progress. And I would say that we are optimistic 
that we will be able to meet the commitments made to you 
through Assistant Secretary Hardy that we will be fairly caught 
up with the backlog by September.
    Senator Voinovich. All right. But what you are doing in a 
way is you are robbing Peter to pay Paul.
    Ambassador Hodges. I hope not for long. The people that we 
have taken out of training will be put back in training, and 
then they will be able to go off to their overseas positions.
    Senator Voinovich. Has anybody taken the telescope out and 
looked at what the future looks like? Because there are going 
to be new broder requirements, that is we are going to start 
requiring identification for ground and pedestrian 
transportation. How is that going to impact passport 
processing?
    It would seem to me that there needs to be better 
coordination between the Department of Homeland Security and 
the State Department. You are the ones that have got the job to 
do, and I would hope that someone is looking down the road to 
see whether what DHS requires is realistic, so you can plan and 
we do not end up with another one of these fiascos.
    I want to thank the State Department for their cooperation 
in getting the Visa Waiver Program through with the 9/11 bill. 
But it seems to me that there are some inconsistencies in 
whether and for what reasons countries are rejected. Has anyone 
looked at that, to your knowledge, or is this outside of your 
frame of reference?
    Ambassador Hodges. Actually, I would prefer to have the 
Bureau of Consular Affairs answer that question. I am sure that 
this is something, though, that is ongoing review with regard 
to the various countries.
    Senator Voinovich. Well, I would like to have something on 
that. I would like to know what kind of training individuals 
are given in the various embassies. There are supposed to be 
objective standards in place, and I think there may be some 
variation from one place to another. Those people have an 
enormous amount of power in terms of who comes and who does not 
come.
    Ambassador Hodges. The standards would be the same 
throughout the world, and basically you are talking about non-
immigrant visas, obviously. Unfortunately, the burden of proof 
is in the--it is the applicant who has to be able to prove that 
they have every intention of returning to their----
    Senator Voinovich. I am telling you from my experience, 
since I have been in the Senate and the calls I get, that there 
are some differences about how the Visa Waiver program is being 
administered, and I would like to know what standards are used, 
what training is provided, and if anybody ever goes back and 
audits the results.
    Ambassador Hodges. OK.
    Senator Voinovich. Mr. Warlick, what is the difference in 
pay for entry level positions? You have an ambitious young 
person who wants to do something internationally, should they 
go to the State Department or to the United Nations?
    Mr. Warlick. U.N. salaries will vary depending on the cost 
of living of an individual's work location. But U.N. system 
salaries are good. They are based on those in the U.S. Civil 
Service, to which a differential has been given which ranges 
from 10 to 20 percent. Also, U.N. benefits overall, are 
competitive with those provided for the U.S. Civil Service.
    Senator Voinovich. Have you noted any new programs, 
policies, or, let's put it this way: Do applicants feel more 
comfortable about applying now with Secretary General Ban Ki-
moon, or is it about the same as before. He is operating more 
transparently, for example, providing greater financial 
disclosure than was done by the previous Secretary General.
    Mr. Warlick. Right.
    Senator Voinovich. I just wonder, has that filtered out 
that the U.N. may be a better place to work than it was maybe 5 
years ago?
    Mr. Warlick. I think it is too early to identify those 
sorts of trends, but we are very encouraged by the new 
Secretary General and his interest in working with us on this 
very issue. The message that he has communicated to his staff, 
that ethics and accountability are important, we hope over time 
will translate into more Americans into positions at all levels 
in the U.N. system. And more broadly speaking, his effort to 
enhance transparency and accountability in the U.N. system is 
very welcome. We would hope that Americans will see that and 
see it as a place where they would want to work.
    Senator Voinovich. How much of an impediment is the problem 
of the cost of living in New York and the issue of spouses 
finding a job? Is that a big barrier?
    Mr. Warlick. We have not quantified the spousal employment 
problem but it does exist. In many places overseas American 
spouses cannot easily find employment. And that does deter 
applicants from applying. The U.N. provides a post differential 
based in part on cost-of-living, which helps ensure that 
organizations in higher cost-of-living areas will be able to 
attract employees.
    I would add to that, though, that there are very well 
qualified Americans who apply for U.N. jobs, and we do need to 
continue to encourage the United Nations to look seriously at 
American applicants.
    You had posed to Ambassador Hodges, earlier, a question on 
what can you do. First of all, thank you very much for this 
hearing. In recent memory, this is the first time, I believe, 
that the State Department has testified on American citizen 
employment in the United Nations. The fact that we are doing 
this today does shine a spotlight on the importance of this 
issue for Congress.
    Second, you and many of your colleagues in the House and 
Senate meet regularly with senior U.N. officials, including the 
Secretary General himself, on many serious issues. 
Nevertheless, we would encourage you to include this issue of 
American citizen employment on your agendas. This is an 
important area for us and should not be forgotten. And I know 
you would not do that, but this is a message for your 
colleagues as well who travel to New York and elsewhere.
    And, third, I would say that this issue is beyond the State 
Department. Many very well qualified applicants for U.N. jobs 
are not inside the State Department, but are in other agencies 
where we have technical, professional skills. The Secretary of 
State has reached out to her counterparts in agencies and has 
tried to encourage them to details or transfer their staff and, 
to encourage other qualified Americans to apply for jobs in 
international organizations, as well. I think an important 
message from Congress, from you and your colleagues, sir, 
should be that this should be a priority governmentwide; that 
it is important for all departments of the U.S. Government to 
detail and transfer their staff to international organizations.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I have a number of questions to ask, and I am sure Senator 
Voinovich has other questions, but we have two more panels. So 
I want to thank you so much for being here today, and what we 
will do is submit the questions to you and look forward to your 
responses to these questions. And, of course, we are doing all 
of this to try to decide what we need to do to deal with the 
personnel problems that we expect to face and so we can do this 
together.
    I want to thank both of you for your valuable testimony 
this afternoon, and I look forward to working with each of you 
to ensure that the State Department is well prepared for the 
challenges ahead. And there are many of them dealing with 
personnel. So with that, again, I want to thank you very much 
for being here
    Ambassador Hodges. And thank you for having us. I second 
what Mr. Warlick has said. It has been very important for us to 
be here, and we look forward to working with you and answering 
any questions you have.
    Senator Akaka. Yes, and we look forward to our staffs also 
trying to get information we will need to deal with this. Thank 
you very much.
    Mr. Warlick. Thank you very much, Mr. Chairman.
    Senator Akaka. Thank you. Now I ask the second panel of 
witnesses to come forward: Jess Ford, Director, International 
Affairs and Trade, U.S. Government Accountability Office, and 
Thomas Melito, Director, International Affairs and Trade Team, 
U.S. Government Accountability Office.
    As you know, it is the custom of the Subcommittee to swear 
in all witnesses, and I would like to, therefore, ask you to 
stand and raise your right hand. Do you solemnly swear that the 
testimony you are about to give this Subcommittee is the truth, 
the whole truth, and nothing but the truth, so help you, God?
    Mr. Ford. Yes.
    Mr. Melito. Yes.
    Senator Akaka. Thank you. Let the record note that the 
witnesses responded in the affirmative.
    We would like to now hear your statements. I want you to 
know that your full statements will be placed in the record, 
and we look forward to your 5-minute statement to the 
Committee. So will you please begin, Mr. Ford?

 TESTIMONY OF JESS T. FORD,\1\ DIRECTOR, INTERNATIONAL AFFAIRS 
        AND TRADE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Ford. Mr. Chairman, Members of the Subcommittee, I am 
pleased to be here today to discuss GAO's work on the 
Department of State's human capital issues.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ford appears in the Appendix on 
page 59.
---------------------------------------------------------------------------
    In recent years, State has undertaken several broad 
initiatives to ensure that it has enough qualified staff in the 
right places to carry out its mission. These efforts have 
included the State Department's Diplomatic Readiness 
Initiative, designed to hire a reserve of Foreign Service 
officers and civil servant employees, to support training 
opportunities for staff, and to enhance the State Department's 
response to crises and emerging priorities, and also to fill 
skill gaps.
    In addition, the State Department is currently implementing 
its Transformation Diplomacy Initiative, which involves, among 
other things, repositioning overseas staff from locations such 
as Europe to emerging critical areas, including Asia and the 
Middle East. Today I will discuss the State Department's 
progress in addressing staffing shortfalls since the 
implementation of the Diplomatic Readiness Initiative and 
filling gaps in language proficiency of Foreign Service 
officers and other staff.
    GAO has reported on a number of human capital issues that 
have hampered the State Department's ability to carry out the 
President's foreign policy priorities and objectives. My 
statement today is based primarily on a report we issued in 
August of last year.
    The State Department has made some progress in addressing 
staffing shortfalls since implementing the Diplomatic Readiness 
Initiative in 2002. However, the initiative did not fully meet 
its goals, and staffing shortfalls remain a problem. Without 
ensuring that the right people with the right skills are in the 
right places, these gaps will continue to compromise the State 
Department's ability to carry out foreign policy objectives.
    From 2002 to 2004, the Diplomatic Readiness Initiative 
enabled the State Department to hire in excess of a thousand 
employees above attrition to respond to emerging crises. 
However, according to the State Department, much of this 
increase was absorbed by the demand of personnel for problems 
in Iraq and Afghanistan, and thus, the desired crises and 
training reserve was not achieved.
    In addition, the State Department has placed an increased 
focus on foreign language training in certain critical areas, 
which means that staff who would otherwise be working are 
instead attending language training. State Department officials 
recently informed us they now estimate that the State 
Department needs as many as a thousand new positions to address 
staffing shortfalls and to support foreign language training 
needs.
    In an effort to address staffing shortfalls at historically 
hard-to-fill posts, many of which are of significant strategic 
importance to the United States, the State Department had 
implemented a number of incentives, including offering extra 
pay to officers who serve an additional year at these posts and 
allowing employees to negotiate shorter tours of duty. More 
recently, State has made service in a hardship post a 
prerequisite for promotions, and since we issued our report, 
the State Department has increased its service requirements of 
staff at hardship posts and has also taken a number of 
additional measures to ensure that all Iraqi positions are 
filled. However, State has not evaluated the effectiveness of 
these incentives, and it continues to have difficulty 
attracting qualified mid-level applicants for many of these 
positions.
    According to State Department officials, mid-level 
positions at many posts continue to be staffed by junior 
officers who lack experience and have minimal guidance. The 
State Department has not traditionally assigned its employees 
to particular posts based on risks and priorities, but instead 
has basically assigned people based on their expressed levels 
of interest. We recommended that the State Department consider 
using its authority to direct staff to accept assignments as 
necessary to ensure that critical gaps are filled. After our 
report was issued, the State Department Director General 
publicly indicate the State Department would consider using 
directed assignments, if necessary.
    The State Department has made some progress in increasing 
its foreign language capabilities, but significant language 
challenges remain. The State Department has significantly 
increased the number of worldwide positions requiring language 
proficiency and has enhanced efforts to recruit individuals 
proficient in certain languages. However, State continues to 
have difficulties filling language-designated positions. Gaps 
in language proficiency can compromise the State Department's 
ability to execute critical duties, including reaching out to 
foreign audiences central to the war on terror.
    In April of this year, we testified that inadequate 
language skills hampered public diplomacy officers' ability to 
cultivate personal relationships and explain U.S. foreign 
policy. Moreover, officials at one high visa fraud post stated 
that consular officers sometimes adjudicate visas without fully 
understanding everything that the applicants can tell them 
because of their language deficiencies.
    The State Department officials told us that some language 
gaps have worsened in recent years due to the State 
Department's relocation of some staff positions to critical 
posts that requires super-hard languages, primarily Arabic. We 
reported that almost 30 percent of the staff filling language-
designated positions worldwide were deficient in the language 
requirements. An example that we cited in our report was in 
Cairo, Egypt, where 59 percent of the language-designated 
positions were filled with people who did not meet the 
requirement.
    Moreover, some officers we met with who did meet the 
language proficiency requirements questioned whether the 
requirements are adequate. For example, officials in Yemen and 
China stated that speaking and reading proficiency levels 
designated for their positions were not high enough for the 
staff to effectively carry out their roles and 
responsibilities.
    Additionally, several factors, including the short length 
of some tours and limitations on consecutive tours at the same 
post hinders officers' ability to enhance and maintain their 
skills. The State Department officials informed us that the 
State Department has recently implemented a new initiative that 
would provide additional language incentive pay for staff if 
they choose to be reassigned to a posting that would utilize 
their existing Arabic language skills. In addition, in response 
to our recommendations, the State Department is taking action 
to enhance its language proficiency of staff mainly through a 
focus on training.
    This concludes my opening statement, and I would be happy 
to answer any of your questions.
    Senator Akaka. Thank you very much, Mr. Ford. Mr. Melito.

TESTIMONY OF THOMAS MELITO,\1\ DIRECTOR, INTERNATIONAL AFFAIRS 
     AND TRADE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Melito. Mr. Chairman and Members of the Subcommittee, I 
am pleased to appear today to discuss ways to improve the 
representation of American professionals at U.N. organizations.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Melito appears in the Appendix on 
page 82.
---------------------------------------------------------------------------
    The U.S. Congress has been concerned that insufficient 
progress has been made to improve U.S. representation. The 
equitable representation of Americans is a priority because the 
United States is the largest financial contributor to most of 
these U.N. organizations, and according to the Department of 
State, Americans bring desirable skills that can have a 
significant impact on operational effectiveness.
    My testimony is based on a report that we issued in 
September 2006 that analyzed U.S. employment at five U.N. 
organizations. My statement today discusses three topics: One, 
U.S. representation status and employment trends; two, factors 
affecting these organizations' ability to meet U.S. 
representation targets; and, three, the State Department's 
efforts to improve U.S. representation.
    In the first main finding, our analysis showed that the 
United States was underrepresented in three of the five U.N. 
organizations we reviewed. Based on U.N. agencies' formal or 
informal targets, U.S. citizens were underrepresented at IAEA, 
UNESCO, and UNHCR, and equitably represented at the U.N. 
Secretariat, though close to the lower end of its target range. 
UNDP had not established a target for U.S. representation, 
although U.S. citizens filled about 11 percent of the agency's 
professional positions. Furthermore, the Secretariat, IAEA, 
UNESCO, and UNHCR will need to increase their hiring of 
Americans from recent levels to meet their minimum targets for 
U.S. representation in the year 2010 given projected staff 
levels and separations.
    I will now turn to the second main finding. While the U.N. 
agencies we reviewed faced some common barriers to recruiting 
and retaining professional staff, including Americans, they 
also faced distinct challenges. Many of these constraints were 
outside of the U.S. Government's control. Barriers common to 
U.N. agencies included non-transparent human resource 
practices, a limited number of positions open to external 
candidates, lengthy hiring processes, and required staff 
mobility and rotation policies. These barriers combined with 
distinct agency-specific factors to impede recruitment and 
retention. For example, candidates serving in professional 
positions funded by their member governments were more likely 
to be hired by the Secretariat than those who took the 
Secretariat's entry-level exam. However, the United States has 
not funded such positions at the Secretariat.
    I will now turn to the third main finding. The State 
Department has increased its efforts to support the goal of 
achieving equitable U.S. representation at U.N. organizations. 
The State Department has targeted its efforts to recruit U.S. 
candidates for senior and policymaking U.N. positions. Although 
we cannot directly link the State Department's efforts to U.N. 
hiring decisions, U.S. representation in senior and policy 
positions has shown some improvement in recent years in most of 
the five U.N. organizations we reviewed.
    The State Department has also undertaken several efforts to 
improve overall U.S. representation, including adding staff to 
its U.N. employment office and increasing coordination with 
other U.S. agencies that work with U.N. organizations. For 
positions below the senior level, State focused on 
disseminating information on U.N. vacancies through its 
websites, attending career fairs, and by other means. Despite 
these efforts, U.S. representation in entry- and mid-level 
positions tended to decline in recent years in most of the U.N. 
organizations we reviewed.
    In light of the issues I just discussed, our 2006 report 
recommended that the Secretary of State undertake three 
actions: First, provide more consistent and comprehensive 
information about U.N. employment on the State and U.S. mission 
websites and work with U.S. agencies to expand the U.N. 
employment information on their websites; second, expand 
recruitment to better target Americans for entry- and mid-level 
U.N. positions; and, third, evaluate the feasibility of both 
maintaining a roster of qualified candidates for high-priority 
positions and also of funding positions (such as Junior 
Professional Officers) where there are representation concerns.
    In commenting on a draft of the September 2006 report, 
State agreed to implement all of our recommendations. In July 
2007, State officials said they had begun to take some actions 
to implement our recommendations such as outreaching to new 
groups and conducting a preliminary analysis on the cost of 
maintaining a roster.
    Mr. Chairman, this completes my prepared statement. I will 
be happy to address any questions you or Senator Voinovich may 
have. Thank you.
    Senator Akaka. Thank you very much, Mr. Melito.
    Mr. Ford, Executive Order 11552, dated August 24, 1970, 
gives the State Department responsibility for efforts to 
increase and improve participation by U.S. citizens in 
international organizations through transfers and details. Do 
you believe that Federal Government employees are given ample 
opportunity, support, and encouragement for efforts to pursue 
employment at U.N. agencies? And if they are not, then why not?
    Mr. Ford. Senator, I am going to turn that over to my 
colleague to my left. He is the expert on the U.N. I am the 
State Department guy.
    Senator Akaka. Fine. Mr. Melito.
    Mr. Melito. Thank you, Mr. Chairman. There is an Executive 
order from 1970 which calls for U.S. agencies to facilitate 
their own employees to work at U.N. agencies. And in May 2006, 
the Secretary of State sent a memorandum out to reinforce this 
Executive order. But in our discussions with the State 
Department and with other agencies, it is very difficult to 
actually implement this.
    First of all, there is very limited information about these 
opportunities, and that is one of the things we highlighted. We 
wanted more information on different agencies' websites. And in 
our follow-up work, we found that actually two agencies--the 
Department of Justice and the Nuclear Regulatory Commission--
have actually dropped information about U.N. jobs on their 
websites since our report came out last year.
    The other thing is when a particular employee leaves and 
goes to the United Nations, his seniority may not carry over 
with him; when he returns, he might not get sufficient credit 
for the experience he has there; so it is not clear that U.N. 
employment is rewarded. We highlight in the report that there 
should be more emphasis on U.N. employment and there should be 
more recognition of its importance.
    Senator Akaka. Yes. Mr. Ford, the number of unaccompanied, 
danger-pay positions at overseas posts has increased four-fold 
since September 11, 2001. The risks to embassy employees has, 
therefore, increased significantly. Do you think this will 
negatively affect recruitment for the Foreign Service?
    Mr. Ford. Well, certainly we have not studied a direct 
correlation between unaccompanied posts and the State 
Department's recruitment efforts. I can say that it is an issue 
at the State Department with regard to the assignment process. 
They are concerned about having enough qualified people bid for 
these positions because these positions, as you mentioned, they 
are unaccompanied. If you have a spouse, there is an issue of 
whether or not you are going to be separated from your spouse; 
or in some cases, if you are allowed to bring your spouse, 
whether there is an opportunity for the spouse to get 
employment in a highly difficult location.
    So I know it is a matter of concern for the State 
Department, but I have not seen any data that would show 
whether or not it is affecting their recruitment of individuals 
in terms of having a difficult time attracting the right kind 
of people.
    Senator Akaka. Thank you.
    Mr. Ford, GAO reported that State continues to have 
significant gaps in foreign language proficiency and that this 
adversely affects the State Department's diplomatic readiness 
and its ability to execute critical duties, including reaching 
out to foreign audiences central to the war on terror. In what 
areas were the language gaps the worst?
    Mr. Ford. The areas where they have the largest shortfall 
are in management positions; in their public diplomacy area, 
they had shortfalls in that area; their specialists, their 
foreign affairs specialists, we found many of their positions 
did not have people with the right skill sets.
    Those were the ones where they seemed to have the most 
difficulty. The effect of this, although it is somewhat 
anecdotal, but we got lots of comments about--particularly in 
the public diplomacy area. Most of the State Department people 
in the public diplomacy business have indicated to us that in 
order for them to be effective in a foreign environment, they 
have to have some fairly high-level language capability. And we 
found in many cases we had people in positions that they could 
not speak the language at the required level and, therefore, 
they could not be as effective as they ought to be for carrying 
out that role and responsibility.
    Senator Akaka. Mr. Melito, when the Department of State 
recruits candidates for employment at the U.N., the Department 
of State does not have any authority in the hiring process at 
the U.N. Given that the Department of State is not the 
employing body, what distinct challenges does that present? And 
what recommendations do we have to address them?
    Mr. Melito. This is a question of awareness as much as 
anything else. The efforts of the State Department in this 
realm are to reach out to universities and different 
professional organizations, in order to make them aware of the 
U.N. opportunities that exist and to facilitate the application 
process. And this is probably successful in some realms, 
although we pointed out areas where they can do better.
    But ultimately the U.N. is making the hiring decision, and 
that is the U.S. policy. They should be basing their hiring 
decisions on the best qualified candidate regardless of which 
country they come from. And the United States is against 
individual countries' actively intervening with the hiring 
decision. They want to make sure the best candidates are 
brought forward. But the United States can do a better job of 
making the individual applicants aware of these opportunities 
and facilitating the application process.
    We pointed out in the report that they could do this 
better. They have not reached out to a particular professional 
organization of international affairs schools, for example. We 
met with them, and they said they would like to have their 
students know about U.N. jobs. And the State Department said it 
will be reaching out to them, but has not yet.
    Senator Akaka. Thank you very much. Senator Voinovich.
    Senator Voinovich. Mr. Melito, are you familiar with Lynn 
Pascoe?
    Mr. Melito. No. I am sorry, sir.
    Senator Voinovich. He went over to the U.N. to take on a 
new job. You cannot answer this question, then. I was wondering 
what his background was. Was he with the State Department and 
then went over there? Does anybody know?
    Ms. Derrick. He was with the State Department.
    Mr. Melito. That is actually a State Department person, I 
think.
    Ms. Derrick. He was an Ambassador at the State Department.
    Senator Voinovich. If you want people to go over to the 
United Nations at mid-level positions from the State Department 
do you think that some type of incentive is needed? For 
example, agreeing give credit for U.N. work when they return to 
the State Department?
    Mr. Melito. The incentives should work for both the 
employee and also the agency. On the employee side, yes, it is 
recognition by everyone that this is important--important for 
their agency, important for the U.S. Government, so we value it 
and we recognize that. So when you return, your career has not 
stalled but, in fact, has benefited from U.N. employment.
    But it is also difficult for the agency because the way it 
currently stands, often the position has to be held open, so it 
ends up actually being a slot that they have to maintain on 
their rolls while it is not being filled. So it is expensive 
for them as well, and there probably needs to be some 
consideration of that as well.
    Senator Voinovich. Is there any consideration for some of 
these ``high-level positions''? For example, Christopher 
Burnham went to the U.N. and he started to do some 
transformation efforts, but he let everybody know he was 
leaving at the end of the year. Is there any consideration made 
when we are encouraging people to go to the U.N. to also get 
some long-term commitments so they can really make a 
difference?
    Mr. Melito. As part of my work, I looked at a number of 
different U.N. topics, and I have met with senior-level U.N. 
officials that are Americans that have had long careers. So 
that does happen.
    It really depends on the type of position and also, 
obviously, the circumstances of the individual. In that case, 
Mr. Burnham had intended it to be a short-term position, but 
others want to stay longer.
    Senator Voinovich. And overall--I asked the question of the 
previous witness--how do U.N. pay and benefits compare with 
what the State Department offers?
    Mr. Melito. It is very difficult to do an apples-to-apples 
comparison, and what we highlight in our report is that if you 
only look at salary, the U.N. probably does not look like a 
good deal for many Americans. But the benefits package of the 
U.N. can sometimes be extraordinarily generous. The difficulty 
is that it is not transparent. Factors such as education 
benefits only pertain if you are overseas at a U.N. agency. So 
if you are working in Geneva, you may get very generous 
education benefits, including for your children's college 
education. But if you are posted in New York, you will not get 
that because you are in your home country.
    So we were looking for some way of making this more 
transparent so that an American can get a sense of what his 
benefits would be, maybe through some kind of a web-based 
calculator.
    I will point out that since our report was issued, the 
State Department has added more information on benefits, and it 
is actually very useful. But it would require you to do some 
work to really understand you benefits.
    Senator Voinovich. It could be improved, then.
    Mr. Melito. Right.
    Senator Voinovich. In other words, so that people really 
can make the comparison.
    Mr. Melito. We met with over a hundred Americans who are 
currently working at the U.N. These people have already decided 
to work there. But one of the things we heard many times was 
that they were surprised, after they were hired, how generous 
some of these fringe benefits were. So you see these are people 
who actually decided anyway, but we do not know about the 
people who did not decide to work at the U.N. because they did 
not know about the benefits.
    Senator Voinovich. Well, if I were the State Department, I 
would get some of those people out doing some recruiting.
    Mr. Melito. Yes.
    Senator Voinovich. Mr. Ford, you state that the incentives 
for attracting mid-level staff to hardship posts has not been 
evaluated and that certain data were not available when you did 
your review. Have you or will you be reviewing the questions 
the State Department plans to ask in their quality-of-life 
surveys so that you get the best information that is available 
in regard to whether these incentives are working or not 
working?
    Mr. Ford. We have not been asked to do that. The 
recommendation in our report was designed for them to collect 
information, and perhaps that survey would be a vehicle for 
them to do so, so that they could better determine what 
incentives work best and which ones do not work so well, and 
then they could make appropriate adjustments.
    Right now, as far as we can tell, most of the incentives 
are financial, which are probably helpful, but there may be 
other incentives. I mentioned the spousal issue, length of the 
tour of duty, how long you are going to be in a place, things 
like that. We believe they need to more systematically analyze 
those situations so that they can come up with the best set of 
options that would be available to try to make sure they get 
the right people in the right place.
    Senator Voinovich. Maybe Senator Akaka and I could send a 
letter to the State Department suggesting that they discuss the 
results of the survey with GAO so that we can find out really 
whether these incentives are working or not.
    Because of problems in filling positions, some mid-level 
staff with less experience are taking some of the jobs that 
senior people should be having. From a quality point of view in 
terms of delivering services, has there been any examples of 
this being a problem? Have you seen that at all?
    Mr. Ford. Well, we talked to a lot of senior management in 
the State Department--Ambassadors, DCMs, the senior people at 
many of the embassies we visited--and if you have a junior 
person in a stretch position, in a higher-level position, they 
do not have the level of experience, because they do not have 
enough supervisors at the mid-level at the embassy, they are 
not getting the experience and supervision that they need.
    So I think the senior management in many cases would say, 
you are not getting the same quality--not that the individuals 
are not quality people, but that they just do not have enough 
experience yet, they have not been in this position long enough 
to know how to deal with certain situations.
    So, there are some risks. I mean, we cited an example in 
our report in China where there is a fairly high level of visa 
fraud in China. We had very junior people in mid-level 
positions who are responsible for adjudicating visas. And so 
there is a concern about whether they have enough experience to 
do that job effectively.
    But I want to make it clear we are not saying that, the 
individuals in junior levels of the Foreign Service are not 
quality people. As far as we can tell, they are attracting and 
recruiting quality people. It is just a case of experience.
    Senator Voinovich. But they need experience.
    Mr. Ford. They need experience.
    Senator Voinovich. Just a final question, Senator Akaka, 
and that would be this: If the State Department has not had 
additional authorized positions since 2004, is there any way 
under the sun that the State Department will be able to get the 
job done that we are asking them to do--and it has grown more 
significant as time has gone on, as we have heard--without 
getting the thousand new people that they need to get the job 
done?
    Mr. Ford. Well, let me say a couple things here.
    First, with regard to the thousand people they say they 
need, we have not really validated that number from a GAO point 
of view as to if that is what they really need. That is what 
they told us they need. But I will say that over our track 
record of looking at their skill sets and their shortages over 
the last 5 years, they have had a gap at the mid-level. They 
recognize they have a gap. They think that by 2010 they will be 
able to fill all the mid-level positions so that experience 
issue that I just referred to earlier will be taken care of. 
But it is clear that they have gaps in some critical positions, 
and those gaps, in my view, need to be filled. But I cannot 
tell you whether it is 1,000 people or 800 or what the 
appropriate number is. We have not studied that.
    Senator Voinovich. Maybe you should. Thank you.
    Senator Akaka. Well, thank you. Thank you very much, 
Senator Voinovich.
    I want to thank the both of you for your testimony, and 
without question, your testimony will be helpful to this 
Subcommittee, and we look forward to working with you in the 
future. So thank you very much for being here.
    Mr. Ford. Thank you.
    Mr. Melito. Thank you.
    Senator Akaka. Now I ask our third and final panel of 
witnesses to come forward: John Naland, President of the 
American Foreign Service Association; Ambassador Thomas Boyatt, 
President and CEO of the Foreign Affairs Council; and Deborah 
Derrick, Executive Director, Better World Campaign, United 
Nations Foundation.
    Thank you very much for standing, and raise your right 
hand. Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Naland. Yes.
    Mr. Boyatt. Yes.
    Ms. Derrick. Yes.
    Senator Akaka. Thank you very much. Let the record note 
that the witnesses responded in the affirmative.
    Thank you very much for being here, and now I would like 
Mr. Naland to begin with your testimony. By the way, I will 
just repeat and say that your full statements will be entered 
into the record.
    Mr. Naland.

  TESTIMONY OF JOHN K. NALAND,\1\ PRESIDENT, AMERICAN FOREIGN 
                      SERVICE ASSOCIATION

    Mr. Naland. Mr. Chairman, Senator Voinovich, thank you very 
much for inviting us here today. This is a critical topic, and 
I am absolutely delighted that you are shining some light on 
it.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Naland appears in the Appendix on 
page 101.
---------------------------------------------------------------------------
    In fact, the previous speakers and your own questions have 
elicited so much of the information that I will just leave my 
comments in the record and just make a few comments off the top 
of my head.
    There are three issues I see: Shortages. We had Ambassador 
Hodges saying that there is a deficit of over 200 people at the 
mid-level of the Foreign Service. Then we had Mr. Ford of the 
GAO saying that we have mid-level positions being filled by 
entry-level officers. Well, even I can figure out that math. 
The Foreign Service is playing musical chairs with more chairs 
than people. And so when everyone sits down, there are going to 
be empty chairs. It is just as simple as that.
    The President's budget request for the last 2 years asked 
for additional people above attrition. The Congress was unable 
to fund them. The budget request going through this year asks 
for 254 additional positions. And so we ask you to talk to your 
colleagues about the importance of filling these positions.
    The next issue I would cover is training. I am a 21-year 
veteran of the Foreign Service, but I also am an Army veteran, 
and I just had the honor last summer as a Foreign Service 
officer of graduating from the U.S. Army War College at 
Carlisle, and I am just amazed at how much more training Army 
officers get then Foreign Service officers. If you take General 
Jones or General Petraeus or Admiral Mullen, and if you compare 
their resumes to Under Secretary for Political Affairs Nick 
Burns or whatever, I think you will see that the flag-level 
officers have gotten [Government funded] MBAs, have gotten 
PhDs, have been to the Command and General Staff College, have 
been to the Army War College. And the Foreign Service folks, 
they hire us, usually we are pretty good, we report for duty, 
and they say, ``Well, good luck. Go ahead.''
    Yes, we do get language training, but we just do not get 
the kind of ongoing professional training that the uniformed 
military does. And, again, that is obviously no criticism of 
the uniformed military. I just wish we were not the Cinderella 
service and that we had some of those opportunities.
    Finally, I would mention the overseas pay disparity, which 
you two obviously are very conversant with. Foreign Service 
members, when they transfer overseas, currently take an 18.69-
percent cut in base pay. Next year, if there is another budget 
increase and another locality pay allocation, it will probably 
go to 20 percent. And that just makes no sense to me.
    Now, no, there is not attrition yet, and, no, people have 
not stopped applying for the Foreign Service. But at some point 
it is just going to catch up to us. For the last century, the 
Congress has had allowances that put incentives to overseas 
service in the Foreign Service, and those allowances are being 
eroded by the pay disparity.
    Now, there are two versions of how to fix this. One is 
backed by the Administration. The other is backed by many of 
the majority members of the U.S. Congress. And the Foreign 
Service union does not care which solution the wise members 
agree to. We would just like to see it fixed.
    So in 4 minutes, I will save the time for questions. I just 
want to thank you very much for having us here today.
    Senator Akaka. Thank you very much, Mr. Naland. Ambassador 
Boyatt.

    TESTIMONY OF THOMAS D. BOYATT,\1\ AMBASSADOR (RETIRED), 
               PRESIDENT, FOREIGN AFFAIRS COUNCIL

    Mr. Boyatt. Thank you very much, Mr. Chairman, Senator 
Voinovich, for affording me and, through me, the Foreign 
Affairs Council, the opportunity to comment on strengthening 
American diplomacy, which is exactly what our organization is 
committed to.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Boyatt appears in the Appendix on 
page 108.
---------------------------------------------------------------------------
    In a deeper sense, and on behalf of all of those who think, 
as I do, and as the Foreign Affairs Council does, that 
management is important, thank you for focusing the attention 
of the Senate and the American people on the reality that the 
management of the people who make and implement foreign policy 
is just as important as the foreign policies themselves. The 
problem in this town is that--and certainly in the foreign 
affairs area--we get seized with policy and everybody forgets 
about the management, and we have paid for that over the years.
    As you know, Mr. Chairman, the Foreign Affairs Council has 
just published its third biennial assessment of the stewardship 
of the Secretary of State as a leader and as a manager. We have 
sent copies of this report to every Senator and every 
Representative and to all the relevant staffs, and particularly 
to your staff. An awful lot of work went into compiling this 
report, which deals with matters with which you are seized, and 
I would respectfully request that our report be made a part of 
and incorporated in the record of these proceedings.\2\
---------------------------------------------------------------------------
    \2\ Copy of the ``Third Biennial Assessment of the Stewardship of 
the Secretary of State'' appears in the Appendix on page 199.
---------------------------------------------------------------------------
    Senator Akaka. Without objection, we will put it in the 
record.
    Mr. Boyatt. Thank you.
    I, like Mr. Naland, who set a very high standard for 
brevity, will simply thank you for putting my remarks in the 
record. I just want to hit three or four points.
    I want you to understand who the Foreign Affairs Council 
is. We are an umbrella group of the CEOs of 11 organizations 
plus myself. All of us are concerned with the processes of 
diplomacy, concerned about the people who carry out diplomacy, 
and concerned about the leadership at the State Department in 
an administrative sense. We do not deal with policy.
    Among the members of our constituent organizations are 
virtually all serving members of the Foreign Service, a large 
number of retireds; I believe every retired Ambassador, either 
from the professional career or from the private sector who 
have become Ambassadors are members of our organization. We 
bring a great deal of experience to the party. The 12 members 
of the council itself among them have something like 400 or 500 
years of Foreign Service, State Department, and diplomatic 
experience, and the members of our constituent organizations, 
that number runs into the hundreds of thousands.
    I would also like to make the point--a historical point 
here. This morning's proceedings have concentrated on what has 
happened more or less since 2000, with first the Diplomatic 
Readiness Initiative and then the vacuuming up of all of these 
positions by the needs of Afghanistan and Iraq and so on. I 
would just like for the record to point out that the hollowing 
out of the Foreign Service began after the collapse of the 
Soviet Union in the last year of the first Bush Administration, 
when Secretary Baker decided not to seek extra personnel to 
staff the 12 new embassies or 14 new embassies that resulted 
from the collapse of the Soviet Union. That was taken out of 
our hide.
    Following that, I think the United States wet into a mini-
isolationist era, and during the 8 years of the Clinton 
Administration, we lost 30 percent of our people and 30 percent 
of the resources, roughly. That was readdressed somewhat by the 
Diplomatic Readiness Initiative, but today we are right back 
where we were in 1999-2000. And, therefore, I repeat, the 
principal finding of our report is that the State Department is 
at least 1,100 positions short, and if we do not get these 
positions, three things are going to happen: One, the gap that 
exists in unfilled positions is going to remain, and that gap 
at any given moment is somewhere between 200 and 400. If you 
consider that our 6,300 officers are spread over the entire 
world. First of all, half of them serve in Washington and New 
York. The remaining 3,000 are spread over 266 posts, some of 
which are large posts. A gap of 200 to 400 is huge. It is 10 
percent or maybe 20 percent, or maybe more, of our officers 
overseas. So the result of that is that there are an awful lot 
of jobs that are not being done today.
    If we do not get the training float, the result is going to 
be a failure of the Diplomatic Readiness Initiative. Our GAO 
colleagues made it very clear that we are not fulfilling 
language requirements as they exist today without adding 
personnel to the Diplomatic Readiness Initiative. If you add 
that requierement, you need at least the 900 positions that we 
call a ``training float'' to train transformational diplomats. 
If you do not train transformational diplomats, 
transformational diplomacy will fail.
    And, finally, there is the issue of the militarization of 
foreign policy, which has been published and commented on 
extensively in the media. The situation today is that the 
United States is engaged in an existential struggle against 
Islamic fundamentalism and a plethora of new challenges that 
arise from globalizationm. We are confronting these challenges 
with a structure that was designed for the Cold War and with a 
deficit of about 20 percent in our personnel. The result of 
that is that whenever a new job comes along, such as 
reconstruction and stabilization, the job goes to the 
institution which has the people and has the resources. And 
what is that institution? It is the Defense Department. It is 
the military. And today, as we meet here, there are Special 
Forces soldiers doing public diplomacy all over the 
underdeveloped world. Why are they doing that? Because we do 
not have enough people to do it.
    There is economic development going on under the aegis of 
the military as a result of the CERF program, Commanders 
Emergency Reconstruction Funds, in the hundreds of millions of 
dollars. Why is that happening in the military and not in our 
development institutions? Because they do not have the people.
    So what I say to you is that these three conditions are 
going to remain: Inability to do the job at hand, inability to 
do transformational diplomacy because of language deficits, and 
a continuation of the militarization of diplomacy if we do not 
get these 1,000 positions and get them in the proximate future.
    The judgments that we made in the Foreign Affairs Council 
are about to be ratified by a CSIS study, as I think you 
mentioned, Mr. Chairman, or perhaps it was Senator Voinovich. 
They are coming to the same conclusion we did. They will 
conclude that we are 1,650 positions short. The Secretary's own 
Transformational Diplomacy Advisory Council is going to 
recommend 1,000 or maybe it is 1,200 new positions now and a 
doubling of the diplomatic cadres over the next 10 years.
    There is a lot of consensus on what the problem is, and 
there is a lot of consensus on what the solution is. And I can 
tell you that all of us who are seized with this are just 
delighted, fervently delighted, that you and this Subcommittee 
are taking on these challenges, because they are serious.
    Thank you, sir.
    Senator Akaka. Thank you very much, Mr. Ambassador.
    Now we will hear from Ms. Derrick.

  TESTIMONY OF DEBORAH DERRICK,\1\ EXECUTIVE DIRECTOR, BETTER 
                         WORLD CAMPAIGN

    Ms. Derrick. Thank you very much, Mr. Chairman, Senator 
Voinovich. I would like to echo the comments earlier of my 
great pleasure that you are holding this hearing. I think it is 
really critical information, and I say that not just as an 
employee of the Better World Campaign and United Nations 
Foundation, but as the spouse of a Foreign Service officer. So 
I think it is critical that we make sure the State Department 
gets the resources it needs to do the job effectively.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Derrick appears in the Appendix 
on page 112.
---------------------------------------------------------------------------
    Before I launch into a longer exposition, I would like to 
say that in general I would say my message is that on the U.N., 
on the employment of Americans at the United Nations basically, 
with all due respect to what the State Department said and what 
the GAO said, it seems to me that the United States is failing 
to develop a farm team, that they have limited resources and in 
putting those resources in, they are making the judgment that 
they get the most bang for the buck by putting it into the 
higher-level positions appointees that they have, but the 
people that I know on a more informal basis that I talk to who 
have applied for positions within the U.N. system are basically 
left to their own devices to interpret and figure out whether 
they should go to the U.N., what are the benefits, how to get 
in, how to apply, and how to find the jobs.
    The Better World Campaign aims to help support the U.N. and 
its causes, and especially to strengthen the U.S.-U.N. 
relationship. It is a privilege to work on such a mission and 
to be here today to speak with you.
    The underrepresentation of Americans at the United Nations 
undermines America's global vision and its ability to conduct 
diplomacy in this key institution. The U.N. is increasingly 
being asked to tackle the biggest problems in the world--from 
nuclear proliferation to global warming; from Darfur to Iraq. 
Having too few Americans in the U.N. means that the United 
States is operating at a strategic disadvantage when it seeks 
to enact policies or reforms at the U.N. It means that we do, 
and will, lack a cadre of experienced civil servants who know 
how the U.N. works. It forces the United States to use its 
biggest guns and bluntest instruments to get its way there--
whether that is threatening to walk out of negotiations or 
standing alone in blocking budgets.
    In short, underrepresentation of Americans within the U.N. 
system eliminates tools from the U.S. national security tool 
kit at a time when we need all the tools we can get. So I 
commend you again for having this hearing and for the useful 
and enlightening GAO report.
    The GAO largely suggested that State Department operations 
and U.N. structural barriers lay behind American 
underrepresentation. I think the GAO missed one key point, 
though, and that is that this shortfall comes back to 
longstanding and inconsistent U.S. investments of all kinds in 
the U.N. and, indeed, in the multilateral system. And I know, 
Senator Voinovich, that you recognized that some of that 
underinvestment comes back purely to dollars and resources and 
not so much--I know the political winds go up and down with the 
United Nations, but it is also just a question of resources. 
And so an OECD report from last year noted that the proportion 
of U.S. foreign assistance funding going through multilateral 
agencies altogether, not just the U.N., plummeted from 26 to 8 
percent in recent years. Thus, at the beginning of 2007, the 
United States was behind in its dues or in arrears in virtually 
every major international treaty organization that it belonged 
to. That includes the U.N., NATO, World Health Organization, 
OECD, and the IAEA.
    There is nothing particularly new in shortfalls for the 
U.N. I work for an institution that was founded by Ted Turner 
when he became alarmed that the United States was $1 billion in 
arrears at the U.N., and for a time the United States climbed 
back into better standing, but at the moment, we are sliding 
back towards owing $1 billion. And, once again, I think this is 
more a matter of resources than it is current distrust with Ban 
Ki-moon of the United Nations, because Ambassador Khalilzad has 
a good working relationship with Ban Ki-moon and, in fact, has 
recently asked the United Nations to take on a bigger role in 
Iraq.
    Rather than working to influence the U.N. with an inside 
game, the United States does not pay its dues on time and in 
full and does not work, I think, sufficiently to place American 
civil servants within the U.N. system. The United States tends 
to have to rely on, as I said, more blunt mechanisms like 
threats of withholding funding or public criticism to get its 
way at the United Nations. And this is not the best way, in my 
opinion, to influence friends and thwart enemies.
    The GAO report noted that the State Department has recently 
increased the number of employees helping Americans to find 
their way into the U.N. system. I believe, though, that a 
couple of the political appointees recently assigned to this 
work have now moved on. Further, there was a general attrition 
of personnel dedicated to this task during the 1990s and the 
early 2000s. So the State Department's efforts to place 
Americans in the U.N. system waxes and wanes over time, and 
this means that the United States lacks a long-term plan for 
strategically placing Americans in the U.N. system.
    I would also say that GAO's suggestion that most of the 
barriers to getting Americans into the U.N. are outside of the 
U.S. Government's control, I would say that I do not completely 
agree with that because other countries with smaller GDPs 
manage to find a way around these same barriers. European 
countries are successfully putting people in, especially by 
sponsoring junior professional officer (JPO) and associate 
expert positions. And, in fact, if you look at a list of the 
countries that sponsor JPO and associate expert positions--this 
includes Austria, the United Kingdom, Canada, and Switzerland--
the United States' lack of participation is striking.
    There are also a few barriers to U.S. representation at the 
U.N. that were not highlighted in the GAO report, such as 
language, general pressure to recruit more nationals from 
developing countries, and--in the State Department--a relative 
lack of expertise in technical areas where there are more jobs 
accessible to U.S. personnel. But, again, I would be remiss if 
I failed to note the overall effect of underfunding and 
underresourcing of the U.S. State Department.
    So I think that there are a couple things that could be 
done above and beyond what the GAO has recommended. First, I 
would say we need greater resources for diplomacy in the State 
Department. Within the State Department, I would recommend 
that--or we would recommend that the International 
Organizations Bureau get more personnel dedicated to this 
effort and specifically to head Americans into non-Secretariat 
and more technical positions, like the WHO, FAO, or IAEA. And I 
believe we would recommend that we go beyond GAO's 
recommendation to study the potential value of funding junior 
professional officers and associate expert positions. The data 
is in. It is sitting there in the GAO report. These mechanisms 
work, and they work to get personnel into the system. The 
Congress itself could enact legislation to expand the use of 
these positions, and I think that would be an excellent way of 
getting more Americans into the system.
    I would also encourage the United States to look at getting 
a roster of candidates for peacekeeping operations positions, 
and at this point I would like to thank you for the opportunity 
to testify today and would be happy to take your questions.
    Senator Akaka. Thank you very much for your testimonies.
    Mr. Ambassador, as CEO and as President of the Foreign 
Affairs Council, let me ask you this question: Do you believe 
that the Foreign Service has become politicized? And if so, 
why?
    Mr. Boyatt. I don't. I mean, we can always argue about the 
number of politically appointed ambassadors versus the number 
of ambassadors from the career. But, I think that the Foreign 
Service does what it has always done. It serves the 
administration in power, and as a career service, it must do 
that. And my observation--and I have been, as you might 
imagine, very close to the Foreign Service in a variety of 
ways--is that at the working levels it is not very politicized. 
At the political levels, it is politicized.
    With respect to ambassadors, I think the percentage is 
roughly what it has been for the last 50 years or so--one-third 
from the outside and two-thirds from the inside.
    Senator Akaka. Thank you. Ms. Derrick, you mentioned Ted 
Turner.
    Ms. Derrick. Right.
    Senator Akaka. Quite a man. I just wanted you to know that 
I was very impressed with him.
    The IAEA does not have formal staffing targets for 
Americans. In light of the GAO's findings regarding staffing at 
the U.N. agency, do you believe such targets should be made 
formal for all of the U.N. agencies?
    Ms. Derrick. I am not sure that it is necessary in all of 
the U.N. agencies. I think that it is probably more 
advantageous to actually work on getting the personnel in 
rather than changing the rules of the game within the U.N.'s 
individual agencies themselves.
    For example, when I was talking with someone informally in 
preparation for this hearing, a guy who had worked in and 
around the IAEA for years, he said that the IO Bureau--and, 
again, this comes back to resources--had a woeful lack of 
understanding of the technical needs, the technical personnel 
needs in the nuclear industry. He said the mission in Vienna 
was pretty well abreast of it, but back here in Washington, DC, 
in the agency that might be able to advertise positions or 
notify people of positions in the United States, they did not 
have as much expertise as they needed to be able to pull on the 
appropriate people with the United States in this area. So I 
would recommend that instead.
    Senator Akaka. Mr. Naland, do you believe that the 
Administration is moving toward a more military type diplomatic 
corps at the State Department, one which encourages a 
willingness to follow orders without question?
    Mr. Naland. No, sir. The Secretary of State has always had 
the legal authority to direct the assignment of Foreign Service 
members. I met with Secretary Rice last Thursday at her 
invitation, which I really appreciated, and she stated that she 
wants to avoid direct assignment of Foreign Service members to 
Iraq, but if she needs to, she will do it.
    So I believe the Foreign Service--I really believe the word 
``service'' in there. It is like the uniformed military in many 
respects. We do what we are told by the administration in power 
under the laws passed by the Congress, and that is the way it 
is set up to be, and I think that is how it is going to 
continue.
    I don't know if that was responsive to your question, but--
--
    Senator Akaka. Thank you. Yes, thank you so much for your 
response. I will call on Senator Voinovich for your questions. 
Thank you so much.
    Senator Voinovich [presiding]. You are welcome.
    Mr. Boyatt, you represent quite an impressive organization.
    Mr. Boyatt. It impresses me, too, sir.
    Senator Voinovich. I have been very concerned about 
management at the State Department and expressed my concerns to 
Secretary Rice. As I mentioned earlier, I was not real happy 
about Bob Zoellick going in there because I thought we needed 
somebody that would concentrate on management.
    You are retired, right?
    Mr. Boyatt. Yes, sir.
    Senator Voinovich. Would you like to comment on the 
difference between the Powell-Armitage-Rice----
    Mr. Boyatt. Sure. I do not mind. I will try to be 
diplomatic.
    Senator Voinovich. Well, I expect you would.
    [Laughter.]
    Mr. Boyatt. It is just a historical reality that 9 times 
out of 10, as the Secretary of State, we get either an academic 
or a lawyer. It is also a reality that those are the two most 
management-challenged professions in the United States. As you 
know, they are sole practitioners who get ahead in life not by 
managing large numbers of people but by being brilliant or 
winning cases or publishing monographs, small-unit warfare.
    And so we traditionally have a deficit on the management 
side in the State Department and the Foreign Service. And when 
somebody like Secretary Powell came along, who understands and 
manages the State Department with a chief executive officer, 
himself, and a chief operating officer, Rich Armitage, and a 
chief management officer, Grant Green, they were 
extraordinarily successful. And they have already become part 
of a Foreign Service legend, which is--the only great managers 
that we have had before Colin Powell were George Marshall, and 
that was 60 years ago, and George Shultz. And now there is a 
third. And I hope that Secretary Rice will become the fourth, 
but it is going to require a lot of action in the personnel 
area in these next 2 years. We have to build these numbers back 
up, or the job is not going to get done.
    So I had the same reaction to Bob Zoellick that you did. I 
wanted to see somebody in that position who was a manager and 
not another policy wonk. I will tell you, quite frankly, that 
the Foreign Affairs Council has been considering supporting 
legislation that was put forward some years ago by Congressman 
Rogers to require by law that there be an additional Deputy 
Secretary position for Management. If something like that were 
to come along, I personally would support it, and I would urge 
the Foreign Affairs Council to do so likewise, because I think 
you are going to have to institutionalize--the only way we are 
going to consistently get managers at the State Department is 
to institutionalize the situation.
    Senator Voinovich. Well, I am interested in that. As you 
know, I am a member of the Foreign Relations Committee.
    Mr. Boyatt. Yes, sir.
    Senator Voinovich. I am trying to get a CMO for the 
Homeland Security Department and also at the Defense 
Department. The Defense Department has had operations and 
management functions on GAO's high-risk list since 1990, 14 of 
them in total. And we just do not pay enough attention to 
management around here.
    Mr. Boyatt. True.
    Senator Voinovich. I would also suggest that you do 
everything you can to impress upon Secretary Rice how important 
it is to get these people on board that are needed. The problem 
is that the Federal Government does not have enough money. What 
we are doing is producing budgets that are not balanced, a 
higher national debt, and the American people have got to know 
we are not taking in enough money to provide the resources that 
we need to get the job done in our respective agencies. That is 
one of the reasons why I think we need to disengage in Iraq and 
make some of that money available.
    Think about all of the money that we have spent there and 
how much difference that would make in the State Department for 
you to do the job they are supposed to do and USAID and some of 
the things that I think will make much more of a difference. I 
mean, I do not think that people get it that this is a 
different war that we are in, and they just do not understand 
this. We are dealing with this like we did other wars, and it 
is not the same.
    So I would encourage your organization to do what you can, 
and if I were you, I would also somehow get this issue into the 
next presidential campaign.
    Mr. Boyatt. Well, right now we are trying to raise the 
money to do a zero-based budget approach to the 150 accounts, 
to forget everything that exists today except the mission and 
then to determine how many people and how much money it takes 
to do that mission and build it up from the bottom. And if we 
achieve funding for that, it will be aimed at telling both 
candidates from each party what really needs to be done in the 
foreign affairs side to win this war that we are talking about.
    Senator Voinovich. Well, I would welcome it, and if you are 
interested in somebody that is passionate about this, I am.
    Mr. Boyatt. We are interested.
    Senator Voinovich. Mr. Naland, you were talking about this 
whole issue of locality pay. I hear this everywhere I go around 
the world, that when, you leave Washington you lose 18.5 
percent of pay and you projected it to go to 20 percent.
    Mr. Naland. Yes, sir.
    Senator Voinovich. I am also a big booster of pay for 
performance, and I am proud of the fact that TSA has pay for 
performance. The Defense Department in their civilian workforce 
we have 160,000 people today that are under pay from 
performance.
    Without dealing with this locality pay, how successful do 
you think pay for performance is going to be?
    Mr. Naland. Just a month ago, I got off a State Department 
promotion panel--I was on there before I became the union 
president, obviously--and we rank order everyone in the 
competition group from A to Z. And so in the Foreign Service we 
have been doing this forever, and so I can easily say how in 
the Foreign Service we could go to a pay-for-performance system 
in a heartbeat, with having the promotion panels do the rank 
ordering, not some manager who likes someone or whatever, but--
--
    Senator Voinovich. You are worried about the arbitrariness 
that would occur.
    Mr. Naland. Well, I am not, but other members are. But in 
the Foreign Service, we have a decades-long tradition of having 
these promotion panels rank ordering people, and so we are good 
to go on it. We could do it tomorrow. It is just my 
understanding is pay for performance has been rolled out with 
DHS and DOD. Some of your colleagues----
    Senator Voinovich. No, DHS, forget it. It is gone. We are 
trying to preserve it in the Defense Department. But the 
question I am asking you is: If we do not deal with this 
differential, isn't that going to kind of throw a monkey into 
the wrench--or a wrench into--it will foul it up.
    [Laughter.]
    Mr. Naland. Our original goal was to get the overseas pay 
disparity fixed, and Secretary Powell worked that issue through 
the White House and never got it out of the White House. 
Secretary Rice was able to get it out of the White House, but 
only with the White House saying, well, this should be a pay-
for-performance system. So that is kind of where we stand now.
    If you had done State Department pay for performance 7 
years ago before DHS or DOD ever were in the mix, it could have 
passed, and we would be doing it.
    So I am all for it. I can see how it would work in the 
Foreign Service because we have been doing this for decades, 
rank ordering people. It is just finding--getting the Congress 
to agree with whatever mechanism, and as I said, we will take 
whatever mechanism. If you can convince your colleagues pay for 
performance, I am all for it.
    Senator Voinovich. Do you think that the State Department 
has the flexibilities it needs to get people to come to work 
for it?
    Mr. Naland. Yes, sir. We have people, tens of thousands of 
people lined up to take the Foreign Service exam. As I think 
Ambassador Hodges mentioned, instead of giving it once a year, 
now the State Department is going to give it four times a year. 
And so under Secretary Powell and now under Secretary Rice, 
there have been great strides made. There are these polls, 
which I sometimes question, where young people say that the 
Foreign Service is compared to Disney and everything, it is one 
of their top dream jobs. I do not think they know what they 
would be getting into, but sure, there are plenty of people 
wanting to come in. So it is very heartening.
    Senator Voinovich. You are saying that is not the problem.
    Mr. Naland. Good people are coming in.
    Senator Voinovich. Ms. Derrick, on the U.N., I have spent a 
lot of time talking to--you have got this Under Secretary 
General for Management, Alicia Barcena, from Mexico I think.
    Ms. Derrick. Mexico, yes.
    Senator Voinovich. Took over for Christopher Burnham, and 
there was a lot of concern that his replacement was not a U.S. 
citizen, but she has made a commitment there. What do you think 
of her so far?
    Ms. Derrick. I think she is doing quite a good job, and I 
am encouraged by the overall direction that Secretary General 
Ban is taking the United Nations.
    Senator Voinovich. I agree with you and I would comment 
again about entry-level positions. We are doing fine filling 
top-level positions, but other countries do a much better job 
of getting people into entry-level jobs and having them work 
their way up in the organization.
    Ms. Derrick. That is right.
    Senator Voinovich. We have failed in that area. Would you 
agree with that?
    Ms. Derrick. Yes, I would. As the GAO report notes, there 
are a couple of sections within the U.N. where particular 
sections of either the Department of Energy in the IAEA's case 
or the Bureau of Population, Refugees, and Migration (PRM)--has 
a junior professional officer program where they place junior 
personnel--this is like the entry-level professional program. 
And the report from GAO notes that 65 percent--in the 
Secretariat's case, 65 percent of the people who are put into 
those positions end up getting hired on a permanent basis. So 
this is a surefire way of getting people in. But the United 
States has declined to participate in this in the Secretariat. 
So this is just unexplainable, except for resources.
    Senator Voinovich. Well, I think you ought to keep working 
with this Administration, but I think you also ought to look to 
the new Administration to try and get them to pay attention. 
One of the things that gets me is we are a billion--we will be 
a billion dollars behind in our dues to the United Nations. We 
are asking them to do peacekeeping.
    Ms. Derrick. In Darfur.
    Senator Voinovich. I know there has been a lot of 
controversy about the U.N., but I think more and more Americans 
are realizing that it is fundamental to some of the things that 
we want to get done with North Korea, Iran, Palestine.
    Ms. Derrick. The hot spots.
    Senator Voinovich. You name it.
    Ms. Derrick. Right.
    Senator Voinovich. And it seems to me that the U.N. is 
going to become more important in the future for us in 
multilateral efforts rather than the unilateral approach taken 
in the first couple of years of this Administration.
    So I think I would just encourage your organization to 
communicate the four things that you would do that you think 
really would make a difference in getting the job done, and I 
would be glad to share that with Secretary Rice.
    Ms. Derrick. Okay. I would be delighted to provide that.
    Senator Voinovich. Would you agree that our public 
diplomacy is probably at the lowest level that we have seen it? 
And if you do, do you believe that because we have not put the 
resources into the State Department and these international 
organizations, that that is part of the problem that we are 
experiencing? That we do not have the right people or the right 
knowledge and skills at the right place at the right time. And 
as a result our public diplomacy is declining? Do any of you 
want to comment on that as a kind of finale to this hearing?
    Mr. Naland. Yes, sir. I think the State Department and the 
Foreign Service will be fully employed for the next 5 to 10 
years rebuilding some of America's standing in the world, and 
to do so we need public diplomacy officers who speak the 
languages and speak them well. I mean, today we are worried 
about Arabic. Ten years from now, people will be screaming, 
``Why don't you have Chinese speakers?'' So I think we need the 
resources, including the non-sexy training float, to provide 
the training so people can go out and give America's message in 
the language of the host country.
    Senator Voinovich. To win this, ``war for hearts and minds 
of people,'' we have to get serious about the State Department, 
hire people that have the language skills needed, and maintain 
embassies that are fully staffed. This would make a big 
difference.
    Mr. Naland. Yes, sir. And then a lot of the overstretched 
uniformed military people could go back to doing traditional 
military jobs or go back to a CONUS post with their family.
    Mr. Boyatt. I agree with Mr. Naland with respect to 
resources. Just two additional comments.
    One, there is the issue of policies. There are some 
policies that are never going to be--they are going to make the 
United States unpopular in certain parts of the world. Until 
those policies change, no amount of public diplomacy is going 
to change our standing in those particular spots. But the 
challenge is there, and the assessment that we did of the Under 
Secretary for Public Diplomacy's office in our report was very 
positive. With what they have, they are making a lot of 
progress, and it is strongly supported by the PD officers 
inside that organization. But there are just not enough of 
them.
    And one additional comment. The solution is not to re-
establish an independent USIA. It is to keep structurally the 
situation where it is and to get more people doing it. And my 
prejudice here is that of an ambassador. When you are in charge 
of a country team, the fewer people that you have reporting 
back in direct stovepipes to Washington, the easier it is to 
manage that country team. And I think that having public 
diplomacy----
    Senator Voinovich. In other words, what you are saying is 
that there is more cooperation between the embassy and the 
USAID working as a team rather than reporting back to 
Washington.
    Mr. Boyatt. Yes.
    Senator Voinovich. It should be a strategic plan, here it 
is, USAID doing this stuff, and you fit it into the State 
Department's diplomatic initiatives.
    Mr. Boyatt. Exactly, yes. But above all, resources.
    Ms. Derrick. And I would say if there is a silver lining on 
all of this, it is that there seems to be a great and growing 
interest in people committing themselves to the causes that are 
extant in the Foreign Service and the United Nations. A 
colleague of mine who works in the U.N. office here in 
Washington, DC, said that they had two positions posted 
recently. They had 700 Americans applying for those two 
positions.
    Senator Voinovich. Well, you know what? Maybe if they get 
it we will make some progress. We are at a critical time right 
now, and we have to get our act together and resources into 
diplomacy. If we do not, we are in real deep trouble in terms 
of the future of our country and our national security and our 
relationship with the rest of the world.
    Mr. Boyatt. Yes, sir.
    Mr. Naland. Thank you, sir.
    Senator Voinovich. I really thank you for being here today, 
and I publicly thank Senator Akaka. The two of us have been 
partners. We have spent almost 9 years on human capital and 
know how important it is. I am around for at least another 3 
years. And Senator Akaka just got re-elected so we are going to 
stay on this. You can be assured that, this is not just a one-
time shot.
    Mr. Boyatt. So the Foreign Affairs Council is going to stay 
on it, also.
    Senator Voinovich. Okay.
    Mr. Boyatt. We look forward to working with you.
    Senator Voinovich. Thank you very much.
    The meeting is adjourned.
    [Whereupon, at 5:03 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
